<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE, DEPARTMENT OF TRANSPORTATION, CORPORATION FOR PUBLIC BROADCASTING, OFFICE OF SCIENCE AND TECHNOLOGY POLICY, METROPOLITAN WASHINGTON AIRPORTS AUTHORITY, AND SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION</title>
<body><pre>[Senate Hearing 109-1155]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1155

                    NOMINATIONS TO THE DEPARTMENT OF
                COMMERCE, DEPARTMENT OF TRANSPORTATION,
                  CORPORATION FOR PUBLIC BROADCASTING,
                OFFICE OF SCIENCE AND TECHNOLOGY POLICY,
                    METROPOLITAN WASHINGTON AIRPORTS
                     AUTHORITY, AND SAINT LAWRENCE
                     SEAWAY DEVELOPMENT CORPORATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE

71-811 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 21, 2006...............................     1
Statement of Senator Inouye......................................    28
    Prepared statement of Senator Rockefeller....................    28
Statement of Senator Pryor.......................................    29
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     3
Prepared statement of the Chairman regarding the Background of:
    Hon. David Pryor.............................................     3
    Cynthia Glassman.............................................    13
    Sharon Hays..................................................    20
    Calvin L. Scovel III.........................................    30
    Charles Snelling.............................................    35

                               Witnesses

Boskin, Chris, Nominee to be a Member of the Board of Directors, 
  Corporation for Public Broadcasting............................     9
    Prepared statement...........................................    11
    Biographical information.....................................    12
Ehlers, Hon. Vernon, U.S. Representative from Michigan...........     1
Glassman, Ph.D., Hon. Cynthia A., Nominee to be Under Secretary 
  for Economic Affairs, Department of Commerce...................    14
    Prepared statement...........................................    15
    Biographical information.....................................    16
Hays, Dr. Sharon Lynn, Nominee to be Associate Director, Office 
  of Science and Technology Policy...............................    20
    Prepared statement...........................................    22
    Biographical information.....................................    24
Johnson, Jr., Collister ``Terry,'' Nominee to be Administrator, 
  Saint Lawrence Seaway Development Corporation..................    43
    Prepared statement...........................................    44
    Biographical information.....................................    45
Pryor, Hon. David, Nominee to be a Member of the Board of 
  Directors, Corporation for Public Broadcasting.................     4
    Prepared statement...........................................     5
    Biographical information.....................................     6
Scovel III, Calvin L., Nominee to be Inspector General, 
  Department of Transportation...................................    30
    Prepared statement...........................................    31
    Biographical information.....................................    32
Snelling, Hon. Charles Darwin, Nominee to be a Member of the 
  Board of Directors, Metropolitan Washington Airports Authority.    35
    Prepared statement...........................................    37
    Biographical information.....................................    38
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............    19
    Prepared statement...........................................    19

 
                    NOMINATIONS TO THE DEPARTMENT OF
                        COMMERCE, DEPARTMENT OF
                    TRANSPORTATION, CORPORATION FOR
                     PUBLIC BROADCASTING, OFFICE OF
                     SCIENCE AND TECHNOLOGY POLICY,
                    METROPOLITAN WASHINGTON AIRPORTS
      AUTHORITY, AND SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Thank you very much. We're going to start off 
the afternoon with presentations made by Representative Ehlers 
and by Senator Specter.
    We're happy to have you come over and make this 
presentation, Mr. Ehlers. We're at your service.

               STATEMENT OF HON. VERNON EHLERS, 
               U.S. REPRESENTATIVE FROM MICHIGAN

    Mr. Ehlers. Mr. Chairman, it is, indeed, a great pleasure 
to come over here, and it's an honor for me to introduce Dr. 
Sharon Hays, the President's nominee for the position of 
Associate Director of Science at the Office of Science and 
Technology Policy.
    I suspect most people here know that I am a scientist, a 
nuclear physicist. I have done a good deal of work on science 
in my life, and also in the Congress. And one of those tasks 
was to, at the behest of Speaker Gingrich when he was the 
Speaker, to try to develop a new national science policy. The 
last time that had been done was 1945, and an excellent piece 
of work at that time, but Newt and others felt it should be 
updated.
    Fortunately, at the time this project was started, I was 
fortunate enough to have an excellent science fellow from the 
American Association for the Advancement of Science, Dr. Sharon 
Hays--she only stayed with me a year, but that was more than 
enough to produce this book, one of the few government 
documents that has been printed in paperback and distributed 
worldwide. And she did an absolutely incredible job on that. I 
could not have produced this work without her help. She is 
astute, knowledgeable, capable, a good writer, and an 
incredibly capable person to have working for the U.S. 
Government.
    After she left my office, she worked for the Science 
Committee in the House, but now has been working in the Office 
of Science and Technology Policy for several years. That 
agency, of course, provides scientific and technical advice to 
the President, works to assess and coordinate science and 
technology efforts across the Federal Government. And the 
position she has been nominated for as the OSTP Associate 
Director for Science leads these important activities within 
the science division of OSTP, and I cannot imagine anyone more 
knowledgeable, more experienced, and more capable to take on 
that task.
    She has been educated at some of the Nation's most 
prestigious institutions. Unfortunately, not the University of 
Alaska. But she came very close to that. She received her 
undergraduate degree in molecular biology from the University 
of California at Berkeley, from which I received my Ph.D. And 
she received her Ph.D. in biochemistry from Stanford 
University, where she performed her thesis research under the 
direction of Nobel Laureate Paul Berg, one of the brightest 
scientists in the world, and she still continues her friendship 
with him. Her scientific work has been published in scientific 
journals and presented at international scientific meetings.
    I was very fortunate to meet her early. As I said, she's 
been--was an invaluable help to me during the time she was in 
my office. She is a diplomat par excellence. She conducted all 
her work--and the work I gave her involved dealing with many 
scientists throughout--across the country--she graciously 
conducted herself with flying colors, and I simply could not 
have done the work without her.
    I was very sorry to have her leave my office, but she 
strengthened her policy credentials in the House Science 
Committee; and her work at OSTP, up to this point, has been a 
blessing to the Nation, but also has really aided in her 
growth.
    She is clearly qualified for this position. Both leaders in 
science and her peers have recognized her abilities and lauded 
her nomination. From my own personal interaction with Dr. Hays, 
I can say, without reservation, that her integrity and 
character further complement her other outstanding 
qualifications. We are very fortunate to have someone of her 
ability, her character, her competence working for the U.S. 
Government, devoting her unique mixture of scientific 
expertise, policy experience, and desire to serve the 
Government working on our most pressing national problems in 
one of our greatest scientific agencies.
    The President made a fine choice in Dr. Hays. It is my hope 
that this distinguished panel will approve her confirmation 
today. And I thank you for the opportunity to introduce her to 
you.
    The Chairman. Well, thank you very much, Mr. Chairman. Do 
you have any comments, Senator?
    Senator Inouye. No, thank you.
    The Chairman. We do appreciate you coming. And she comes 
highly recommended, with your endorsement, so we will be 
pleased to act on this nomination as quickly as possible.
    Mr. Ehlers. I thank you very much.
    The Chairman. Now we'll hear from the Honorable David 
Pryor, Chris Boskin, Cynthia Glassman, and Sharon Hays.
    [Pause.]
    The Chairman. I'm going to put in the record my opening 
statement, and proceed right to the statements of the nominees.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    This afternoon the Committee will hear from nominees chosen to 
serve in various positions in the transportation, communications, 
science, and economic sectors. The Committee welcomes you, and thanks 
you for your willingness to serve.
    Senator David Pryor and Chris Boskin have been nominated to serve 
on the Board of Directors of the Corporation for Public Broadcasting. 
CPB is vital to ensuring the survival of local television and radio 
stations. Although CPB does not produce programs, it awards grants to 
create public broadcasting programs. As members of the Board of 
Directors, these nominees would set policies and establish programming 
priorities.
    Dr. Cynthia Glassman has been nominated to be Under Secretary for 
Economic Affairs at the Department of Commerce. If confirmed, Dr. 
Glassman would oversee the Economics and Statistics Administration, 
which keeps track of economic and social changes in order to analyze 
them and craft domestic and international economic policy.
    Dr. Sharon Hays is the nominee to be Associate Director of the 
Office of Science and Technology Policy. Our Committee approved an 
innovation and competitiveness bill in May and the Committee is now 
working to get the full Senate to consider and pass a bill on this 
topic. OSTP has the potential to make important contributions to our 
country on the issue of innovation, and I look forward to continuing 
our discussions on this very important issue. Senator Allen has 
submitted a statement for the record in support of Dr. Hays, and I 
understand that Congressman Ehlers is here today to speak in support of 
Dr. Hays' nomination.
    Colonel Calvin Scovel has been nominated to be Inspector General of 
the Department of Transportation. The IG's office plays the important 
role of conducting audits and investigations in order to ensure no 
fraud or abuse is occurring within the Department. This Committee 
relies on the IG's office for independent and timely reviews of DOT 
programs. We have a long history with the IG's office and I look 
forward to working with Colonel Scovel should he be confirmed.
    Charles Snelling is nominated to serve a second term on the Board 
of Directors for the Metropolitan Washington Airports Authority. The 
Airports Authority operates Dulles and Reagan National Airports and 
handles the modernization and capital improvements for both. The Board 
plays a pivotal role for the National Capitol Region and the many 
travelers who pass through the region each year. Senator Specter will 
be introducing Mr. Snelling this morning.
    Collister Johnson is the President's nominee to be Administrator of 
the Saint Lawrence Seaway Development Corporation. The major 
responsibilities of the SLSDC include operation and maintenance of the 
two U.S. locks in the St. Lawrence River, vessel traffic control, and 
marketing to increase trade through the Great Lakes.
    I have been notified that the nominees have family and friends in 
attendance today, and I hope they will take a moment to introduce them 
to the Committee.

    The Chairman. Senator, I never thought I'd have this 
privilege of recognizing you as a nominee, but welcome to this 
hearing. We'd be pleased to have your statement. You're 
nominated to become a member of the board of directors of the 
Corporation for Public Broadcasting.

    Prepared Statement of the Chairman regarding the Background of 
                            Hon. David Pryor
    David Pryor was nominated on June 26, 2006, to be a Member of the 
Board of Directors at CPB. Senator Pryor served as Dean of the Clinton 
School of Public Service from 2004 to 2006. He served as a U.S. Senator 
from 1979 to 1997, after serving in the U.S. House of Representatives 
and as Governor of Arkansas. In addition to his public service, Senator 
Pryor has acted as a consultant for such companies as Federal Express 
Corporation, CorpHealth, Waste Management, and Financial Services 
Corporation. Senator Pryor earned his bachelor's and law degrees from 
the University of Arkansas, and is a resident of Little Rock, Arkansas.

        STATEMENT OF HON. DAVID PRYOR, NOMINEE TO BE A 
   MEMBER OF THE BOARD OF DIRECTORS, CORPORATION FOR PUBLIC 
                          BROADCASTING

    Senator David Pryor. Mr. Chairman, thank you. I'm honored 
to be here today.
    The Chairman. Would you do us a favor and introduce your 
lady?
    Senator David Pryor. Well, let's see, I have Ms. Boskin on 
my left and----
    [Laughter.]
    Senator David Pryor.--and Barbara Pryor on my right.
    [Laughter.]
    Senator David Pryor. Barbara Pryor is--I have two ladies 
here, I think, I'm looking at. Yes, Barbara is here with us, 
Senator Stevens and Senator Inouye. And Ms. Boskin is one of 
the two nominees today that I think the Committee will be 
looking at. And so, we're all honored to be here in your 
Committee.
    Mr. Chairman, my statement should just really last about 2 
minutes, and I just want to thank you and say that I'm so 
honored that you would let us come before your committee. I'm 
glad that you called this meeting. And, also, Mr. Chairman and 
Senator Inouye, I'm so honored that the President has named me 
as a nominee for the Corporation of Public Broadcasting Board.
    During the past several months, I've had the opportunity to 
read in some detail as it relates to the history and the 
purpose, the practice, the ultimate mission of public 
broadcasting in our great and diverse country. And America, I 
think, Mr. Chairman, is truly on the eve of celebrating one of 
the great events of America, and that is public broadcasting.
    Virtually every American citizen in every rural and urban 
neighborhood now has access to the many varied programs offered 
by public radio and public television, notwithstanding the many 
contributions the commercial stations and new cable systems 
have made. And, more and more, the average citizen, I truly 
believe, has established a special relationship, even a bond, 
with their favorite programs brought to them by public 
television and by public radio.
    Mr. Chairman, to me there seems to be several common themes 
which have evolved from concept to commitment in the area of 
public radio and public broadcast during these four decades: 
fairness, objectivity, tolerance, knowledge, education, 
balance, perspective, and entertainment. And these 
characteristics of radio and television in the arena of public 
broadcasting have become the hallmark of this truly great 
American adventure.
    I truly believe that the Corporation for Public 
Broadcasting, with its unique partnerships with member outlets, 
state governments, private donors, has developed a strong 
family of support for the common belief that sharing the 
American experience with each other through public television 
and radio has met with enormous success. This experience has 
helped bring us together as a country to help to define 
ourselves as a people and to explore in a very transparent way 
not only our differences, but certainly our common interests. 
Because of public radio and public television, I believe that 
America is a better place.
    Respectfully, Mr. Chairman, members of the Committee, it 
would be difficult to imagine what America might have missed 
had we failed, some 40 years ago to have authorized and 
committed ourselves to a system of public broadcasting. Think 
about it: Sesame Street, Robert McNeil and Jim Lehrer, Antiques 
Road Show, All Things Considered, local and national debates, 
Car Talk, Mr. Rogers, Masterpiece Theater, and many, many 
others which make up this great fabric of the American 
landscape.
    Mr. Chairman, I bring no agenda with my nomination. In 
fact, I bring very little expertise or experience in the field 
of radio or television broadcasting, especially compared to my 
colleagues at the witness table today and those who now sit on 
the corporation board of directors. But I do hope I bring a 
very strong commitment to the corporation and a continued quest 
for excellence which I truly believe this corporation is trying 
to achieve. And I only hope that some of the life experiences 
that I've had along the way can somehow be utilized to be a 
constructive advocate as a member of this very, very 
distinguished board.
    Mr. Chairman, I thank you for hearing my statement this 
afternoon.
    [The prepared statement and biographical information of 
Senator Pryor follow:]

 Prepared Statement of Hon. David Pryor, Nominee to be a Member of the 
        Board of Directors, Corporation for Public Broadcasting
    Mr. Chairman and distinguished Members of the Committee:
    I am honored to be here with you today and am grateful to the 
President for this nomination to be considered for a Board position on 
the Corporation for Public Broadcasting.
    During the past several months, I have had the opportunity to read 
in some detail as it relates to the history, purpose, practice and 
ultimate mission of Public Broadcasting in out great and diverse 
country.
    America is on the eve of celebrating forty years of public 
broadcasting in our country. Virtually every American citizen, in every 
rural and urban neighborhood, now has access to the many varied 
programs offered by public radio and television.
    Notwithstanding the many contributions the commercial stations and 
new cable systems have made, more and more the average citizen in 
America has established a special relationship, even a bond, with their 
favorite programs brought to them by public broadcast and public radio.
    Mr. Chairman, to me, there seems to be several common themes which 
have evolved from concept to commitment in these four decades:

  <bullet> Fairness
  <bullet> Objectivity
  <bullet> Tolerance
  <bullet> Knowledge
  <bullet> Education
  <bullet> Balance
  <bullet> Perspective
  <bullet> Entertainment

    These characteristics of radio and television in the arena of 
public broadcasting have become the hallmark of this great American 
adventure.
    I truly believe that the Corporation for Public Broadcasting, with 
its unique partnerships with member outlets, state governments, and 
private donors, has developed a strong family of support for the common 
belief that sharing the American experience with each other through 
public broadcast television and radio had met with enormous success. 
This experience has helped bring us together, to define ourselves, to 
explore in a very transparent way our differences and common interests.
    Because of public radio and broadcast, I believe that America is a 
better place.
    Respectfully, Mr. Chairman and members of the Committee, it would 
be difficult to imagine what America might have missed had we failed 
some forty years ago to authorize and commit to a system of public 
broadcasting--Sesame Street. Robert McNeil and Jim Lehrer. Antique Road 
Show. All Things Considered. Local and national debates. Car Talk. Mr. 
Rogers. . . . a real and living part of our American landscape.
    Mr. Chairman--I bring no agenda with my nomination. In fact, I 
bring very little expertise in the field of radio or television 
broadcast, especially compared to my colleagues at the witness table 
today and those who now sit on the Corporation Board.
    But, I do hope I bring a commitment, a strong commitment, to the 
Corporations continued quest for excellence.
    I only hope that some of the life experiences I've had along the 
way can be somehow utilized to be a constructive advocate as a member 
of this distinguished Board.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used) David Hampton 
Pryor.
    2. Position to which nominated: Board of Directors, Corporation for 
Public Broadcasting.
    3. Date of nomination: June 2006.
    4. Address (List current place of residence and office addresses.)

        Residence: information not released to the public.

        Office: 2701 Kavanaugh Blvd., Suite 300, Little Rock, AR 72205.

        Office: Clinton School of Public Service, University of 
        Arkansas, 1200 President Clinton Ave., Little Rock, AR 72201.

    5. Date and place of birth: 8/29/1934; Camden, Arkansas.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Barbara Lunsford Pryor, Wife, Self-employed Interior Decorator; 
        children: David Hampton Pryor, Jr., son, 46; Mark Lunsford 
        Pryor, son, 43; Scott Newton Pryor, son, 40.

    7. List all college and graduate degrees. Provide year and school 
attended: B.A., University of Arkansas, 1957 J.D., University of 
Arkansas, 1964.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated: None.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Dean, Clinton School of Public Service, University of Little Rock, 
Arkansas Distinguished Professor, Political Science Department, 
University of Arkansas
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business enterprise, 
educational, or other institution within the last 5 years.

        Dean, Clinton School of Public Service

        Consultant, Federal Express Corporation

        Managing Director, Herrington, Inc.

        Trustee, Clinton Legal Expense Trust

        Consultant, CorpHealth

        Distinguished Professor, University of Arkansas

        Consultant, Waste Management

        Consultant, Financial Services Corporation

        Consultant, Halter Financial Group

        Consultant, Anawah, Inc.

        Consultant, Arkansas Electric Cooperatives

        Partner, Sundquist, Pryor, Boland, Reeves, Cloud

        Consultant, George Tagg Consulting

        Director, Institute of Politics, Harvard University

        Trustee, Clinton Presidential Library Foundation

        Comptroller General's Commission to Study the Federal Workers

        Long Term Project, Institute for Healthcare Policy, Georgetown 
        University

        Heinz Award Juror for Public Policy

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Heifer International Board Member 2000-2005 (approx.)

        Winrock International Board Member 1998-2000 (approx.)

        Alfalfa Club, 1995-Present

        Arkansas Arts Center

        KLRE/KUAR

        Arkansas Rep Theatre

        Arkansas Alumni Association, 1990-Present

        Arkansas Bar Association, since admitted to Bar

        Association of Former Members of Congress, 2004-Present

        Chenal Country Club Member, 1998-2000 (approx.)

        Rotary Club of Little Rock, honorary, 1997-Present

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: Yes, no outstanding 
debts.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Mark Pryor for U.S. Senate

        Will Pryor for Congress

        Mike Hathorn for Congress

        Chet Culver Committee

        Democratic Party of Arkansas

        John Kerry for President

        Vic Snyder for Congress

        Meeks for Congress

        Ed Stanton for Congress

        Dodd for Senate

        Jimmie Lou Fisher Campaign

        Boren for Congress

        Hollings for Senate

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Heinz Award Juror for Public Policy

        AARP Andrus Award

        1st Annual Wilbur D. Mills Leadership Award for Preserving 
        Social Security

        KARK Community Service Award

        Fellow and Director, Institute of Politics, Harvard University

        Distinguished Service Award, Arkansas Press Association

        Arkansas Broadcasters Association Arkansan of the Year

        Arkansas Governor's Conference on Tourism Hall of Fame

        The International Foundation's Public Service Award

        Eagle Award, Washington Regional Medical Foundation

        National Association of Area Agencies on Aging, President's 
        Award

        Arkansas Education Association Friend of Education Award

        Diamond Award, Arkansas Chapter Public Relations Society of 
        America

        University of AR Law School Distinguished Alumni Award

        Elected Officials Appreciation Award--AR Martin Luther King, 
        Jr. Commission

        Arkansas Agriculture Hall of Fame

        Historic Preservation Alliance of AR--Parker Westbrook Lifetime 
        Achievement Award

        Charles M. West Distinguished American Ward-97th NARD Annual 
        Convention

        University of Arkansas for Medical Sciences Certificate of 
        Appreciation in Grateful Recognition of outstanding 
        contributions to the field of Gerontology and Geriatrics

        Easter Seals Man of the Year

        Golden Plow Award, American Farm Bureau Federation

        Legislative Conservationists of the Year Award by AR Wildlife 
        Federation in Cooperation With the National Wildlife Federation 
        and Sears Roebuck & Co.

        Greater Little Rock Chamber of Commerce Pinnacle Award

        Honorary Doctorate University of Arkansas

        Honorary Doctorate Henderson State University

        Honorary Doctorate Lyon College

        Honorary Doctorate Philander Smith College

        Fellow, Institute of Politics, Harvard University

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: N/A.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

        Federal Express Corporation, consultant, $6,250 per month.

        Herrington, Inc., Managing Director, $8,333 per month.

        Clinton School of Public Service, $6,000 per month (approx.).

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? See Above.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: None.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority for violation of 
any Federal, state, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: N/A.
    6. Have you even been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much.
    Next, Ms. Chris Boskin, also nominated to be a Member of 
the Board of Directors at the Corporation for Public 
Broadcasting.
    Chris Boskin was nominated on June 26, 2006, to be a Member 
of the Board of Directors at CPB. Ms. Boskin is a veteran of 
magazine publishing, and has held marketing and publishing 
positions with Worth Media, the New Yorker magazine, Hearst 
Corporation, East West Network, and Knapp Communications. She 
has helped launch such magazines as Countryside and Bon 
Appetit. In addition, Ms. Boskin has been a member of numerous 
boards, such as those for KQED (PBS), Yoga Journal, College 
Track, and EDUCATE GIRLS Foundation. Ms Boskin earned her 
bachelor's degree from the University of California, Berkeley, 
and also studied at the Academia in Florence, Italy. She 
currently resides in Portola Valley, California.

STATEMENT OF CHRIS BOSKIN, NOMINEE TO BE A MEMBER OF THE BOARD 
       OF DIRECTORS, CORPORATION FOR PUBLIC BROADCASTING

    Ms. Boskin. Thank you very much, Mr. Chairman.
    Before I read my remarks, I would like to introduce my 
husband, who is here with me, Michael Boskin, and my sister, 
Rusty Dornan.
    The Chairman. Yes, thank you very much.
    Ms. Boskin. Thank you.
    Mr. Chairman and Members of the Committee, thank you very 
much for the opportunity to appear before you today to discuss 
my nomination to the board of the Corporation for Public 
Broadcasting. I would also like to express my gratitude to 
President Bush for nominating me to the board and for giving me 
this opportunity to serve the public.
    I come to CPB as a product of diverse experiences. As the 
child of a Navy officer, I grew up all over the country and was 
constantly exposed to new people and places. During my 30-year 
career in magazine publishing, I have been engaged in 
responding to social, cultural, economic, and technological 
trends that are reshaping the media landscape and offering 
audiences more options and information sources than ever.
    And I come to CPB with the experience of 6 years on the 
board of one of the Nation's flagship public broadcasting 
stations, KQED, in Northern California. I am so proud of the 
service that KQED provides to the people of Northern 
California. Its programming, including PBS shows, NPR programs, 
and KQED productions, reflects the core mission of public 
broadcasting by inspiring, informing, educating and 
entertaining the people of Northern California, as well as 
people all over America.
    Here's one great example. On June 15, 2006, President Bush 
set aside nearly 140,000 square miles as the Northwestern 
Hawaiian Islands Marine National Monument, the largest 
protected marine area in the world. This decision was inspired, 
in part, by the KQED-produced documentary, ``Jean-Michel 
Cousteau: Ocean Adventures `Voyage to Kure,' '' which the 
President viewed shortly before its April 2006 debut on PBS.
    But public broadcasting effort's to reach people does not 
end with broadcast. For KQED, located as it is in California--a 
state I often say is like a Whitman's Sampler, you get a little 
bit of everything--that means being able to reach out to people 
in every background and every walk of life.
    At KQED, we use the power of media to foster learning and 
offer resources to everyone from preschoolers to adult 
learners, especially finding ways to reach the underserved 
communities throughout the bay area. KQED Hands-On Literacy, 
which currently receives funding from CPB, is a ready-to-learn 
grant providing both staff and training and more than 20,000 
children's books a year to community partners serving low-
income and non-English-speaking families. The KQED Media 
Literacy Project supports teachers and educators all over the 
bay area as they encourage students to think critically about 
the powerful images, words and sounds which saturate the 
contemporary culture.
    We deal with broad issues of aging with programs like the 
Golden Road, which addresses safe driving for senior citizens, 
and a Medicare Part D special which answers commonly asked 
questions about this complex healthcare plan, and offer 
additional resources to those viewers with specific questions 
and concerns.
    KQED is an excellent illustration of how public 
broadcasting can reach out to serve a community with unique 
needs. It has been doing so for 52 years. And fortunately, it 
is not alone. Stations from Alaska and Hawaii to Maine and 
Florida and Hawaii, and everywhere in between, are reaching out 
in the ways most valuable to the people they serve.
    One last point. KQED's community believes in what we are 
doing, and proves it by its generous support. Over half of our 
funding comes from direct member contributions. And KQED is one 
of the Nation's most watched public television stations. For 
the millions of Americans who do not have access to the 500-
channel universe created by cable and satellite, and for the 
millions of us who do, there must continue to be a place for 
outstanding programming that reaches out to the unserved and 
underserved, that offers a range of perspectives and 
viewpoints, and that educates, entertains, informs, and 
inspires us to change the world. This is the core mission of 
public broadcasting, and the one I would work to advance as a 
member of the CPB board of directors.
    I would consider it an honor to serve on this distinguished 
board, and I continue to bring my experiences to public 
broadcasting.
    Thank you so very much.
    [The prepared statement and biographical information of Ms. 
Boskin follow:]

Prepared Statement of Chris Boskin, Nominee to be a Member of the Board 
           of Directors, Corporation for Public Broadcasting
    Mr. Chairman and Members of the Committee, thank you very much for 
the opportunity to appear before you today to discuss my nomination to 
the board of the Corporation for Public Broadcasting. I would also like 
to express my gratitude to President Bush for nominating me to the 
board, and for giving me this opportunity to serve the public.
    I come to CPB as a product of diverse experiences. As the child of 
a Navy officer, I grew up all over the country, and was constantly 
exposed to new people and places. During my 30-year career in magazine 
publishing, I have been engaged in responding to social, cultural, 
economic, and technological trends that are reshaping the media 
landscape and offering audiences more options and information sources 
than ever.
    And I come to CPB with the experience of 6 years on the board of 
one of the Nation's flagship public broadcasting stations, KQED in 
Northern California.
    I am so proud of the service that KQED provides to the people of 
Northern California. Its programming--including PBS shows, NPR programs 
and KQED productions--reflects the core mission of public broadcasting 
by inspiring, informing, educating, and entertaining the people of 
Northern California as well as people all over America.
    Here's one great example: On June 15, 2006, President Bush set 
aside nearly 140,000 square miles as the Northwestern Hawaiian Islands 
Marine National Monument--the largest protected marine area in the 
world. This decision was inspired in part by the KQED-produced 
documentary ``Jean-Michel Cousteau: Ocean Adventures `Voyage to Kure,' 
'' which the president viewed shortly before its April, 2006 debut on 
PBS.
    But public broadcasting's efforts to reach people does not end with 
the broadcast. For KQED, located as it is in California--a state I 
often say is like a Whitman's Sampler, with a little bit of 
everything--that means being able to reach out to people of every 
background and every walk of life.
    At KQED, we use the power of media to foster learning and offer 
resources to everyone from preschoolers to adult learners, especially 
finding ways to reach the underserved communities throughout the Bay 
Area.
    KQED Hands on Literacy, which currently receives funding from CPB, 
is a Ready to Learn Grant providing both staff training and more than 
20,000 children's books a year to community partners, serving low-
income and non-English speaking families.
    The KQED Media Literacy Project supports teachers and educators all 
over the Bay Area as they encourage students to think critically about 
the powerful images, words, and sounds which saturate contemporary 
culture.
    We deal with broad issues of aging with programs like ``The Golden 
Road'' which addresses safe driving for senior citizens, and a Medicare 
Part D special, which answers commonly-asked questions about this 
complex health care plan and offers additional resources to those 
viewers with specific questions and concerns.
    KQED is an excellent illustration of how public broadcasting can 
reach out to serve a community with unique needs. It has been doing so 
for 52 years. And fortunately, it is not alone; stations from Alaska 
and Arizona to Maine and Florida and everywhere in between are reaching 
out in the ways most valuable to the people they serve.
    One last point. KQED's community believes in what we are doing--and 
proves it by its generous support. Over half of our funding comes from 
direct member contributions, and KQED is one of the Nation's most 
watched public television stations.
    For the millions of Americans who do not have access to the 500-
channel universe created by cable and satellite--and for the millions 
of us who do--there must continue to be a place for outstanding 
programming that reaches out to the unserved and underserved; that 
offers a range of perspectives and viewpoints; and that educates, 
entertains, informs, and inspires us to change the world. That is the 
core mission of public broadcasting, and the one I would work to 
advance as a member of the CPB Board of Directors.
    I would consider it an honor to serve on this distinguished board 
and to continue to bring my experiences to public broadcasting.
    Thank you and I will be happy to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used) Christien 
Dornin Boskin, Marie, Chris.
    2. Position to which nominated: Board of Directors/Corporation of 
Public Broadcasting.
    3. Date of nomination: June 26, 2006.
    4. Address (List current place of residence and office addresses.) 
Information not released to the public.
    5. Date and place of birth: March 31, 1945; Washington, DC.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Michael J. Boskin/T.M. Friedman Professor of Economics and Hoover 
Institution Senior Fellow, Stanford University.
    7. List all college and graduate degrees. Provide year and school 
attended.
    University of California, Berkeley BA, 1967.
    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated: None.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business enterprise, 
educational, or other institution within the last 5 year.
    KQED Member, Board of Directors. Partner, Yoga Journal Magazine.
    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    KQED, Sun Valley Adaptive Sports, College Track, Alpine Hills 
Tennis & Swim Club, WISH.
    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    Bush/Cheney 2000, $2,000; Bush/Cheney 2004, $2,000; Arnold 
Schwarzenegger for Governor, $2,000.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: N/A.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: Care2.com and ManiaTV.com. Options on 10,000 
shares of stock each if and when they go public.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain: KQED (Board of Directors).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: KQED (Board of 
Directors).
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: N/A.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: I will reframe from participating in any decision raising a 
potential conflict and I will seek the advice of counsel.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? Never.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority for violation of 
any Federal, state, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? Never.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? Never.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? Never.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: N/A.
    6. Have you even been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? N/A.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much.
    Our next witness, if I see right, is Ms. Cynthia Glassman 
to be the Under Secretary for Economic Affairs of the 
Department of Commerce.
    Do you have anyone with you, Ms. Glassman?
    Ms. Glassman. I do. I'm very pleased to introduce my 
husband, Dr. Leonard Glassman, sitting over there.
    The Chairman. Yes, sir. Thank you very much. It's nice to 
have you with us, Doctor.

    Prepared Statement of the Chairman regarding the Background of 
                            Cynthia Glassman
    Cynthia Glassman was nominated on August 3, 2006 to be Under 
Secretary of Commerce for Economic Affairs. Dr. Glassman has served as 
a Commissioner at the Securities and Exchange Commission (SEC) since 
2002, and Acting Chairman since the summer of 2005. Prior to her 
appointment at the SEC, Dr. Glassman was a Principal at Ernst & Young, 
LLP in the Risk Management Group, and then in the Quantitative 
Economics and Statistics Group. Dr. Glassman has also worked at the 
Federal Reserve Bank of Philadelphia, Board of Governors of the Federal 
Reserve System, and Economists, Incorporated. She received her 
bachelor's degree from Wellesley College and her masters and Ph.D. in 
Economics from the University of Pennsylvania. She resides in 
Alexandria, VA.

     STATEMENT OF HON. CYNTHIA A. GLASSMAN, Ph.D., NOMINEE

          TO BE UNDER SECRETARY FOR ECONOMIC AFFAIRS,

                     DEPARTMENT OF COMMERCE

    Ms. Glassman. Chairman Stevens, Senator Inouye, and 
distinguished Members of the Committee, it's a privilege for me 
to appear before you today as the nominee for Under Secretary 
for Economic Affairs for the Department of Commerce. It's an 
honor to be nominated by President Bush for this position.
    As a Ph.D. economist, I've been a user of Commerce data for 
my entire 35-year career, both in government and in the private 
sector. I want to thank Secretary Gutierrez for the opportunity 
to lead the excellent group of professionals at Census, BEA, 
and ESA, and advise him on the state of the economic 
environment.
    The U.S. economy is a complicated and powerful engine. The 
economic language used to examine and explain that language can 
be complex. One of the primary roles of the Under Secretary for 
Economic Affairs is to serve as the chief economic advisor to 
the Secretary. If confirmed, I will seek to ensure that 
Secretary Gutierrez continues to get the information he needs, 
without spin and in plain English.
    Another of my goals, if confirmed, is to make sure that the 
taxpayers' money is put to the best use in collecting and 
generating the most relevant and useful economic data in a 
cost-effective way. Robust, accurate, and timely information is 
critical to making informed policy decisions.
    To maintain and enhance data quality, we need to make sure 
not only that we have sufficient resources devoted to this 
important function, but also that those resources are used 
efficiently and effectively. In that regard, I want to make 
sure that the data are capturing the key elements of the 
economy as we move further into the 21st century. If confirmed, 
I look forward to working with the Secretary and his recently 
announced Advisory Committee on Measuring Innovation in the 
21st Century as they work to outline a way to improve 
measurement in this critical area.
    I have served at the Federal Reserve, the Treasury 
Department, and the Securities and Exchange Commission, in the 
public sector, and as an economist, consultant, and educator in 
the private sector. I believe that this prior experience will 
serve me well both as an overseer of the Census and BEA and as 
an economic advisor to Secretary Gutierrez. And I look forward 
to the opportunity to meet the challenges of this position.
    If confirmed, the transition from SEC Commissioner, 
including my stint as Acting Chairman, to Commerce Under 
Secretary will be a natural one for me. I see the roles as 
philosophically similar: to help advance the quality of life 
and well-being of Americans by helping to maintain a strong and 
vibrant economy.
    As I did at the SEC, at Commerce I would work to carry out 
the mission, specifically working to monitor and maintain a 
sound economic environment--an environment capable of 
supporting economic growth and opportunity for all who seek it. 
I appreciate the opportunity to be here today, and look forward 
to working with you on issues of mutual interest, if my 
nomination is confirmed.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Glassman follow:]

 Prepared Statement of Hon. Cynthia A. Glassman, Ph.D., Nominee to be 
      Under Secretary for Economic Affairs, Department of Commerce
    Chairman Stevens, Senator Inouye, and distinguished Members of the 
Committee, it is a privilege for me to appear before you today as the 
nominee for Under Secretary for Economic Affairs for the Department of 
Commerce. It is an honor to be nominated by President Bush for this 
position. I am pleased that my husband, Len Glassman, is able to be 
here with me today.
    I have a great appreciation for the Economics and Statistics 
Administration, the Census Bureau and the Bureau of Economic Analysis. 
As an economist, I have been a user of Commerce Department data for my 
entire 35-year career, both in government and in the private sector. I 
want to thank Secretary Gutierrez for the opportunity to lead this 
excellent group of professionals and advise him on the state of the 
economic environment.
    The U.S. economy is a complicated and powerful engine. The economic 
language used to examine and explain that engine can be complex. One of 
the primary roles of the Under Secretary for Economic Affairs is to 
serve as the chief economic adviser to the Secretary. If confirmed, I 
will seek to ensure that the Secretary continues to have the 
information he needs--without spin and in plain English. The Secretary 
should have the most accurate, sharp lens with which to look at the 
economy. I have watched the economy from different vantage points in my 
career and will provide him with as clear a view as possible.
    Another of my goals, if confirmed, is to make sure that the 
taxpayers' money is put to the best use in collecting and generating 
the most relevant and useful economic data in a cost effective way. 
After all, the bureaus produce the information that allows Congress, 
the Administration, and decisionmakers at all levels to make the best 
choices for our future. Robust, accurate, and timely information is 
critical to making informed policy decisions. To maintain and enhance 
the data quality, we need to make sure not only that we have sufficient 
resources devoted to this important function, but also that those 
resources are used efficiently and effectively. Census and BEA already 
provide good value for the taxpayers' dollar, but I will work to make 
sure they continue to improve their products, while being mindful of 
costs, benefits, and trade-offs.
    In that regard, I want to make sure that the data are capturing the 
key elements of the economy as we move further into the 21st century. I 
am very excited about Secretary Gutierrez's Innovation Committee 
initiative. I think most of us have an intuitive feeling that the 
strong growth that the United States economy continues to experience as 
compared with other nations is related to our ability to innovate. 
However, while we track some measures that are related to aspects of 
the innovative process, such as R&D spending or number of patents 
issued, we need to gain a better understanding of the impact of 
innovation and its diffusion on the economy. If confirmed, I look 
forward to working with the Secretary and his recently announced 
Advisory Committee on ``Measuring Innovation in the 21st Century'' as 
they work to outline a way to improve measurement in this critical 
area.
    Each of the jobs I have held over the course of my career has been 
different, but in each of them I have focused on some aspect of 
business and the economy. I have served at the Federal Reserve, the 
Treasury Department and the Securities and Exchange Commission in the 
public sector and as an economist, consultant, and educator in the 
private sector. I believe that, if confirmed, this prior experience 
will serve me well both as an overseer of the Census and BEA and as an 
economic advisor to Secretary Gutierrez. I look forward to meeting the 
challenges of the position.
    If confirmed, the transition from SEC Commissioner (including my 
stint as Acting Chairman) to Commerce Under Secretary will be a natural 
one for me. The mission of the Securities and Exchange Commission is 
``to protect investors, maintain fair, orderly, and efficient markets, 
and facilitate capital formation.'' And the mission of Commerce is ``to 
foster, promote, and develop the foreign and domestic commerce.'' I see 
the roles as philosophically similar: to help advance the quality of 
life and well-being of Americans by helping to maintain a strong and 
vibrant economy. American businesses create jobs, hire workers, 
innovate, and produce needed goods and services. The SEC and Commerce 
are both important in maintaining an environment that makes this 
possible. As I did at the SEC, at Commerce I would work to carry out 
the mission, specifically working to monitor and maintain a sound 
economic environment--an environment capable of supporting economic 
growth and opportunity for all who seek it.
    I appreciate the opportunity to meet with you today and look 
forward to working with you on issues of mutual interest if my 
nomination is approved by this Committee and confirmed by the full 
Senate. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Cynthia Aaron 
Glassman (Cynthia Belle Aaron, Cyndi Aaron, Cynthia A. Glassman, Cyndi 
Glassman).
    2. Position to which nominated: Under Secretary of Commerce for 
Economic Affairs.
    3. Date of Nomination: August 3, 2006.
    4. Address (List current place of residence and office addresses): 
Information not released to the public.
    5. Date and Place of Birth: April 16, 1947; Brooklyn, NY.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Leonard M. Glassman, M.D., Partner, WRA, 2141 K Street, 
        NW, Washington, DC 20007.

        Son: Kenneth E. Glassman, age 34.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Wellesley College, B.A., 1967.
        University of Pennsylvania, M.A., 1971, Ph.D., 1975.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        2002-2006, Commissioner, U.S. Securities and Exchange 
        Commission (Acting Chairman--Summer 2005)

        1997-2002, Ernst & Young LLP

           Principal (1999-2002) (In Risk Management Group and then in 
        Quantitative Economics and Statistics Group)

           Director, Commercial Bank Risk Management (1997-1999)

        1988-1997, Furash & Company

           Managing Director (1993-1997)

           Director of Research (1988-1993)

        1986-1988, Senior Economist, Economists Incorporated

        1977-1986, Board of Governors of the Federal Reserve System

           Chief, Financial Reports Section (1982-1986)

           Economist, Capital Markets Section (1981-1982)

           Senior Economist, Office of Capital Markets Legislation, 
        U.S. Department of the Treasury (on loan from the FRB) (1980-
        1981)

           Special Assistant to Governor Henry C. Wallich (1979-1980)

           Economist, Financial Structure Section (1977-1979)

        1974-1977, Economics Supervisor, University of Cambridge, 
        England

        1971-1974, Federal Reserve Bank of Philadelphia

           Senior Economist, Banking Structure Group (1974)

           Economist (1972-1974)

           Research Associate (1971-1972)

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Hopkins House--A Center for Children and Their Families, 
        Member, Budget Committee (2000-2005); Board Member (2001-2005)

        Institute of Banking and Finance of Lebanese-American 
        University, Byblos Campus, Advisory Committee Member (1998-
        2002)

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Women in Housing and Finance, Inc., Member (Current), Board 
        Member (1987-1992), Treasurer (1989-1990)

        RNC President's Club, Member since 1992

        National Economists Club, Member (Current), Vice President for 
        Membership (1992-1993), Board Member (1993-1996)

        Commission on Savings and Investment in America, Board Member 
        and Treasurer (1994-1996)

        American Bankers Association, Retail Banking Digest, Editorial 
        Advisory Board Member (1994-1996)

        Financial Markets and Institutions Policy Group, Dole For 
        President Campaign (1995-1996)

        Porto Vecchio Condominium (Alexandria, VA). Chairman, Budget 
        Committee (1995-1996), Board Member and Treasurer (1996-1999)

        National Association of Business Economists, Member (Current), 
        Publicity Director, Financial Roundtable (1997-1998), 
        Secretary-Treasurer (1998-1999)

        E-Money, The Journal of Electronic Commerce for the Financial 
        Services Industry, Editorial Advisory Board Member (1998-1999)

        Bank Administration Institute Certified Risk Professional 
        Certification Program, Executive Advisory Committee Member 
        (1999-2002)

        To my knowledge, none of these organizations restricts 
        membership on the basis of sex, race, color, religion, national 
        origin, age or handicap.

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.
    My political contributions of $500 or more from July 2006 are as 
follows:

        1996, Republican National Committee, $1,000

        1997, Friends of Alexandria, VA Republicans, $750

        1997, Republican National Committee, $1,000

        1998, Republican National Committee, $1,000

        1999, Republican National Committee, $1,000

        1999, Bush for President, $1,000

        2000, Republican National Committee, $2,000

        2000, Peavey for Mayor Committee (of Alexandria, VA), $2,000 
        (joint)

        2001, Sen. John Warner Committee, $1,000

        2001, Republican National Committee, $2,000

        2002, Sen. John Warner Committee, $1,000

        2002, Republican National Committee, $1,000

        2003, Republican National Committee, $1,000

        2003, Bush/Cheney 2004, Inc., $1,000

        2004, Republican National Committee, $1,000

        2004, Bush/Cheney 2004, Inc., $2,000 (joint)

        2005, Republican National Committee, $1,000

        2006, Republican National Committee, $1,000

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Wellesley College (Pendleton Scholar).

        NDEA Fellowship, 1967-1970 (University of Pennsylvania).

        Special Recognition Award for ``Outstanding Contribution to 
        Public Service,'' Women's National Republican Club, Inc., 83rd 
        Annual Presentation of Awards, April 26, 2004.

        Industry Honoree for ``Significant Contributions to the 
        Financial Services Industry and Advancing the Interests of 
        Women,'' Women in Housing and Finance, Inc., 25th Anniversary 
        Gala, October 22, 2004.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: Please see Attachment A. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    ``Bank Lending to Small Business,'' Testimony before the U.S. House 
of Representatives, Committee on Small Business, 104th Cong., 2d Sess., 
May 1, 1996.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    I vested in the Ernst & Young defined benefit pension plan on 
January 16, 2002. The pension benefit is funded through a trust that is 
independent of Ernst & Young, and is independently maintained and 
managed. Depending on the age at which I start receiving the benefits 
(age 62 or later), my monthly benefits will be about $1,000.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Prior to my appointment as Commissioner to the Securities and 
Exchange Commission in January 2002, I conducted research studies on 
public policy issues as a consultant to the Financial Services 
Roundtable and the American Insurance Association.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I will consult with ethics officials at the Department of Commerce 
and, if appropriate, will divest myself of the conflicting interest, 
recuse myself, or obtain a conflict of interest waiver if the interest 
is not substantial.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you very much.
    We're going to interrupt the proceedings now. Senator 
Specter is here--and we knew he was coming--to introduce 
Charles Snelling to us, I believe.
    Senator Specter. Yes.

               STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Well, thank you very much, Mr. Chairman. 
And I appreciate your giving me the opportunity to speak now.
    I would ask consent that my full statement be made a part 
of the record, and I will be brief.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator from 
                              Pennsylvania
    Mr. Chairman, I am pleased to introduce to the Committee Mr. 
Charles D. Snelling as a nominee for reappointment to the Board of 
Directors of the Metropolitan Washington Airports Authority. Mr. 
Snelling has exemplary aviation, business and leadership qualifications 
that I believe make him a nominee worthy of confirmation.
    Mr. Snelling is a licensed pilot with extensive experience in the 
field of aviation. He has served aptly on the Board of Directors for 
the Metropolitan Washington Airports Authority since 2003, when he was 
originally nominated by President Bush and confirmed by the U.S. 
Senate. Additionally, Mr. Snelling was appointed in 2000 by 
Pennsylvania Governor Tom Ridge to be a member and chair of the 
Pennsylvania Aviation Advisory Committee, on which he served until 
2003. Prior to this service, Mr. Snelling served on the Board of 
Governors of the Lehigh-Northmapton Airport Authority, which operates 
the Lehigh Valley International Airport.
    Mr. Snelling's business experience includes founding Cryo-Therm, 
Inc., an applied thermodynamics company that pioneered a number of 
energy conversion systems and processes that were utilized by both 
military and industry and resulted in Mr. Snelling holding over 20 
issued patents. Mr. Snelling has also achieved remarkable success in 
the field of private venture capital, real estate development and 
agriculture. He is founder and director of a family of venture funds 
that is widely regarded as leading startup venture investors.
    In addition to his aviation and business achievements, Mr. Snelling 
is also a leading political and civic figure. In 1976, he was appointed 
by President Ford to the President's Commission on Personnel 
Interchange and in 1990 he was appointed to serve on the U.S. Small 
Business Administration's National Advisory Committee. He has also 
served as President of the City Council of Allentown (PA), Chairman of 
the Republican Finance Committee of Pennsylvania and delegate to the 
Republican National Convention. Presently, he serves on the 
Pennsylvania Republican State Committee. Mr. Snelling's civic 
experience includes service as a Life Trustee of Cedar Crest College in 
Allentown, Pennsylvania; a Trustee of the Foundation for the 
Advancement of Monetary Education; and Past President of the 
Pennsylvania Society, to name a few.
    Mr. Chairman, the Nation's air transportation system is a vital 
asset that must be properly managed to ensure its safety and 
efficiency. Our nation's airports, including those managed by the 
Metropolitan Washington Airports Authority, will face enormous 
challenges meeting projected increases in congestion and passenger 
demand in the near future. Mr. Snelling has the experience and 
leadership qualities to help meet these challenges, and I support his 
nomination and prompt confirmation by the U.S. Senate.

    Senator Specter. I'm delighted to recommend Charles 
Snelling for the position on the Board of Directors of the 
Metropolitan Washington Airports Authority. I've known Charlie 
Snelling for 25 years, and he has been an enormous success in 
business. He founded his own company. He's a graduate of Lehigh 
University. He has had public appointments in the past. 
President Ford, in 1976, appointed him to the President's 
Commission on Personnel Interchange. I didn't have the 
opportunity to introduce him at that time, because I wasn't a 
Senator. Senator Stevens and Senator Inouye were Senators. 
They've been here a long time. And he served the Lehigh Valley 
Hospital as a trustee. He was appointed by President Bush to 
serve on the MWAA board in 2003. And he has a wonderful family 
background. I know his wife very well, and his family. And he's 
just the kind of a person we need to have a public job like 
this. He could handle matters of much greater magnitude, but 
I'm glad he's willing to accept this appointment. He's done 
outstanding community work, and I know that had Senator 
Santorum been here to recommended him, he would join me in my 
praise.
    And may I just add one sentence--nice to see Senator David 
Pryor here. Nice to see Senator Mark Pryor here, as well.
    [Laughter.]
    Senator Specter. But Senator Pryor was elected in 1978, and 
served three terms, and nice to have him here.
    Senator Pryor. Thank you, sir.
    Senator Specter. Mr. Chairman, again, I thank you for your 
many courtesies.
    The Chairman. Thank you very much.
    And we will proceed with the hearing, then, with Dr. Sharon 
Hays, who was introduced by Congressman Ehlers. Ms. Hays, we'd 
be glad to have your statement.

    Prepared Statement of the Chairman regarding the Background of 
                              Sharon Hays
    Dr. Sharon Hays was nominated on July 21, 2006 to be Associate 
Director of the OSTP. Dr. Hays currently serves as Chief of Staff of 
OSTP, and previously worked as Deputy Chief of Staff as well as Deputy 
to the Associate Director for Technology. Before joining OSTP, she 
served on the House Committee on Science, Subcommittee on Research, 
where she was a Professional Staff Member and then Staff Director. Dr. 
Hays received her bachelor's degree from the University of California 
at Berkeley and her Ph.D. in Biochemistry from Stanford University. She 
currently resides in Potomac Falls, VA.

               STATEMENT OF DR. SHARON LYNN HAYS,

               NOMINEE TO BE ASSOCIATE DIRECTOR,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY

    Dr. Hays. Thank you, Mr. Chairman.
    I'd also like to introduce my husband, Michael, who's here 
today, my parents, and both my mother- and father-in-law, as 
well as a number of other family members.
    The Chairman. We welcome you all.
    Dr. Hays. Mr. Chairman, Co-Chairman, and Members of the 
Committee, I am honored to appear before you today as the 
President's nominee to be an Associate Director of the Office 
of Science and Technology Policy, or OSTP. I am grateful for 
the support of OSTP's Director, Dr. John Marburger, who is also 
here today, and that of my husband and family.
    As you know, OSTP plays important roles in providing 
scientific and technological advice to the President and in 
coordinating the science- and technology-related activities of 
Federal agencies and departments. If confirmed, I look forward 
to working with this committee and the rest of the Congress, as 
well as with others in the executive branch and the scientific 
community, to fulfill these duties.
    I have a deeply rooted belief in the important role of the 
science and technology enterprise in helping to make America 
stronger by stimulating a vibrant economy, providing means for 
securing the homeland and protecting our troops abroad, 
improving the health and overall quality of life for all 
citizens, understanding the world around us, and protecting the 
environment.
    My development as a scientist began very early and in a 
somewhat unlikely place: the kitchen. My mother, armed with a 
book entitled ``Science Experiments You Can Eat'' and her own 
background in science, led our investigations into the workings 
of nature that were fun and, at least in theory, edible. I am 
extremely lucky to have parents who encouraged and cultivated 
my natural curiosity. I developed that curiosity through my 
further studies and work as a research scientist, including my 
Ph.D. dissertation research on DNA damage-repair mechanisms. 
After making the transition to the science policy arena, I have 
gained experience both on the Hill and at OSTP.
    I will now touch very briefly on several of what I view as 
the highest priority science and technology-related issues 
confronting our Nation.
    First is the need to maintain balance in the Federal R&D 
portfolio. OSTP plays an important role in guiding and helping 
to shape the development of the Federal S&T budget, and I am 
committed to working with you and others to develop and advance 
sound, coordinated, and prioritized Federal budgets for science 
and technology.
    A second important priority will be continuing to mobilize 
science in support of national challenges. Many important 
challenges exist in areas such as health, competitiveness, 
security, and the environment, and the combined effort of 
multiple Federal agencies is often required to effectively 
address them.
    Third, there is still much work to do in improving math and 
science education. I believe OSTP can play an important role in 
responding to this challenge, working closely with the many 
departments and agencies that play a role in educating the 
Nation's students at all levels, from kindergarten through 
graduate school and beyond.
    In closing, I am honored by the President's nomination of 
me for Associate Director, and I am humbled by the opportunity 
to appear before you today. If I am confirmed, I will look 
forward to playing a role in applying science and technology to 
help address the many challenges that confront our Nation, and 
to working closely with this Committee to do so.
    Thank you very much.
    [The prepared statement and biographical information of Dr. 
Hays follow:]

  Prepared Statement of Dr. Sharon Lynn Hays, Nominee to be Associate 
           Director, Office of Science and Technology Policy
    Mr. Chairman, Co-chairman, and Members of the Committee, I am 
honored to appear before you today as the President's nominee to be an 
Associate Director of the Office of Science and Technology Policy 
(OSTP).
    As you know, OSTP plays important roles in providing scientific and 
technological advice to the President and in coordinating the science 
and technology related activities of Federal agencies and departments. 
If confirmed, I look forward to working with this Committee and the 
rest of the Congress, as well as with others in the Executive branch 
and the scientific community, to fulfill these duties.
    I have a deeply rooted belief in the important role of the science 
and technology enterprise in helping to make America stronger by 
stimulating a vibrant economy, providing means for securing the 
homeland and protecting our troops abroad, improving the health and 
overall quality of life for all citizens, understanding the world 
around us, and protecting the environment. Ensuring the strength of 
this highly diverse and inter-dependent enterprise and its effective 
application toward the goals mentioned above is a shared responsibility 
in which OSTP has an important role.
    Science and technology have played a critical part in our Nation's 
history and development. The Federal Government's role in supporting 
the U.S. scientific enterprise began in earnest during, and was 
solidified in the period after, World War II. Thanks in large part to 
the vision of Vannevar Bush, set forth in his 1945 report to the 
President entitled Science: The Endless Frontier, Federal funding 
became available for research and development performed in the Nation's 
colleges and universities. At the same time, new Federal agencies were 
formed that incorporated science as a central part of their missions. 
The results of this strategic investment have been profound: federally 
funded research is credited with discoveries that have transformed 
medicine, modernized agriculture, created the information technology 
revolution, enabled development of an advanced transportation 
infrastructure, and fueled many other advances. Technological 
innovation, driven by science, is widely recognized as having a major 
impact on economic growth.
    Science is an increasingly integral and important part of the 
Federal Government, as evidenced in part by recent record-breaking 
budgets for federally-funded research. The President's FY 2007 budget 
requested $137 billion for research and development--the highest level 
ever. The American Competitiveness Initiative, announced in the 
President's State of the Union address, includes a significant new 
Federal research agenda. With this increasing Federal commitment there 
is an ever-greater need for coordination among the Federal departments 
and agencies that participate in this large and complex research and 
development effort. In addition, science and technology are playing 
increasingly important roles in societal decision-making and in 
informing policy choices.
    Congress long ago recognized the importance of high level 
coordination of the Federal research and development effort, as well as 
the need to ensure that accurate and timely advice regarding science 
and technology is readily available to the President. In 1976, Congress 
created OSTP to perform these functions. The office is currently led by 
OSTP Director Dr. John H. Marburger, III, and is organized around two 
central divisions--science and technology--each of which is led by an 
Associate Director. If confirmed, I will lead OSTP's Science Division. 
In doing so, I would work side-by-side with the incumbent Associate 
Director for Technology and report directly to Dr. Marburger.
    OSTP's current organization has helped reduce stovepipes within the 
office and create a highly matrixed and collegial organization that 
takes advantage of OSTP's talented work force--a work force that 
includes experts from a wide breadth of scientific and engineering 
disciplines. As a small office with a broad mandate, OSTP's work force 
is augmented by rotating personnel from Federal departments and 
agencies, which facilitates the continued infusion of technical 
expertise and helps strengthen existing intra-governmental 
relationships. Just as there is rarely a bright line of demarcation 
between the scientific and the technological aspects of the issues upon 
which OSTP works, neither are there restrictive boundaries on the OSTP 
personnel who work in the two divisions, and OSTP's Science and 
Technology Divisions work closely together on many issues.
    One of OSTP's most effective tools in performing its coordination 
function is the National Science and Technology Council, which was 
established by Executive Order in 1993. This Cabinet-level Council is 
the principal means within the executive branch to coordinate science 
and technology policy across the diverse entities that make up the 
Federal research and development enterprise. The work of the Council, 
which OSTP manages, is organized under four primary committees: 
Science, Technology, Environment and Natural Resources, and Homeland 
and National Security. Each of these committees oversees subcommittees 
and working groups that are focused on different areas of science and 
technology and that work to coordinate related activities across the 
Federal Government. If confirmed, I will co-chair the Science Committee 
and the Environment and Natural Resources Committee.
    If I am confirmed, I will look forward to tackling the diverse set 
of science and technology related issues confronting our Nation. The 
following are several of what I view as the highest priority areas.
    Maintaining balance in the Federal R&D portfolio. In keeping with 
OSTP's statutory responsibilities, the office plays an important role 
in guiding and helping to shape the development of the Federal S&T 
budget. If confirmed, I will work with this Committee and other 
stakeholders to develop and advance sound, coordinated, and prioritized 
Federal budgets for science and technology. The development and 
ultimate enactment of agency budgets that reflect the President's 
American Competitiveness Initiative would be one of my highest 
priorities. At the same time, I will also work to ensure development of 
department and agency budgets that meet other important national 
priorities.
    The scientific achievements of the research community have opened 
new avenues of inquiry at a seemingly exponential rate of growth. 
Without a doubt, there are far more good ideas and promising research 
opportunities than Federal funding can realistically support. This will 
continue to demand increasingly difficult and important prioritization 
decisions. Recognizing the importance of working hand-in-hand with 
stakeholders to address this challenge, I will, if confirmed, continue 
to build an open and active dialog with this Committee and others 
within the Congress, work to maintain OSTP's close and productive 
relationship with the Office of Management and Budget, and engage the 
broader scientific community in the discussion of priorities.
    Mobilizing science in support of national challenges. Science plays 
a critical role in helping to solve some of the Nation's (and the 
world's) most difficult challenges. This role is often two-fold. First, 
science can help define the dimensions and articulate the complexities 
of a particular problem, an often-critical step in policymaking. 
Second, science often provides the impetus for an actual technological 
solution. Many important challenges exist--in areas such as health, 
competitiveness, security, and the environment--and the combined effort 
of multiple Federal agencies is often required to effectively address 
them. If confirmed, I will play an active role in helping to apply the 
coordinated efforts of Federal departments and agencies to address 
these challenges. Understanding the needs of policymakers as well as 
the possible contributions of the scientific enterprise requires 
interaction with both communities, a role that OSTP is well suited for.
    Improving math and science education. There is still much work to 
do in improving math and science education. Initiatives such as No 
Child Left Behind have provided an important foundation for the 
improvement of our Nation's K-12 schools. We continue to learn more 
about how students learn, and what actually works in the classroom. 
Working to identify and develop mechanisms to help ensure that these 
findings work their way into the Nation's classrooms will be a high 
priority of mine, if I am confirmed. I believe OSTP can play an 
important role in responding to this challenge, working closely with 
the National Science Foundation, the Department of Education, and the 
many other departments and agencies that play a role in educating the 
Nation's students at all levels--from kindergarten through graduate 
school and beyond.
    In closing, I am honored that the President nominated me to be an 
OSTP Associate Director and I am humbled by the opportunity to appear 
before you today. I believe that my training and experience as a 
research scientist, my work in the policy arena--both on Capitol Hill 
and in the Executive Office of the President--and my proven leadership 
abilities make me well-suited for this position. I am excited by the 
opportunity, if I am confirmed, to play an important role in applying 
science and technology to help address the many challenges that 
confront our Nation. I will look forward to working closely with this 
Committee to do so. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Sharon Lynn 
Hays.
    2. Position to which nominated: Associate Director, Office of 
Science and Technology Policy.
    3. Date of Nomination: July 21, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: Office of Science and Technology Policy Executive 
        Office of the President, New Executive Office Building, 
        Washington, DC 20502.

    5. Date and Place of Birth: May 29, 1966; Camp Pendleton, CA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Michael Scott Baker, Paramedic Supervisor, District of 
        Columbia Fire and Emergency Medical Services Department.

        No children.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.A., Molecular Biology, University of California at Berkeley, 
        1989.

        Ph.D., Biochemistry, Stanford University, 1997.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.
    Managerial:

        Chief of Staff, Office of Science and Technology Policy, July 
        2005-July 2006.

        Deputy Chief of Staff, Office of Science and Technology Policy, 
        June 2005-July 2005.

        Deputy to the Associate Director for Technology, Office of 
        Science and Technology Policy, August 2002-June 2005.

        Staff Director, Research Subcommittee, Committee on Science, 
        U.S. House of Representatives, February 2001-August 2002.

    Non-managerial:

        Professional Staff Member, Committee on Science, U.S. House of 
        Representatives, June 1999-February 2001.

        Legislative Assistant, Office of Representative Vernon Ehlers, 
        U.S. House of Representatives, January 1999-February 1999.

        AAAS (American Association for the Advancement of Science) 
        Congressional Science Fellow, Office of Representative Vernon 
        Ehlers, U.S. House of Representatives, September 1997-December 
        1998.

        Graduate student/researcher, Stanford University Department of 
        Biochemistry, September 1991-May 1997.

        Research assistant/laboratory technician, University of 
        Southern California Department of Molecular Biology, July 1989-
        August 1991.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        DOGS-East, Inc.

           Secretary, August 2003-July 2004.
           President, August 2004-July 2006.

        Women in Aerospace, Board of Directors, January 2003-December 
        2004.

        American Association for the Advancement of Science, 
        Congressional Fellowships Advisory Board, Advisory Board 
        member, January 2002-Present.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        DOGS-East, Inc.

           Member (search and rescue dog handler), November 2000-
        Present (currently on leave of absence).

           Secretary, August 2003-July 2004.

           President, August 2004-July 2006.

        Women in Aerospace, Board of Directors, January 2003-December 
        2004.

        American Association for the Advancement of Science, 
        Congressional Fellowships Advisory Board, Advisory Board 
        member, January 2002-Present.

        American Association for the Advancement of Science, Member 
        since 1997 (membership was not continuous, has currently 
        lapsed).

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        National Institutes of Health training grant recipient while at 
        Stanford University.

        American Association for the Advancement of Science 
        Congressional Science Fellow (1997-1998).

        2005 PLEN Mentor award, Public Leadership Education Network.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Scientific Articles and Presentations:

        Studies of the interaction between Rad52 protein and the yeast 
        single-stranded DNA binding protein RPA. Journal of Molecular 
        and Cellular Biology, 1998.

        Protein Interactions in Yeast Double Strand Break Repair, 
        thesis dissertation, 1997.

        Complex formation in yeast double-strand break repair: 
        participation of Rad51, Rad52, Rad55, and Rad57 proteins. 
        Proceedings of the National Academy of Sciences, 1995.

        Presentation at scientific meeting on DNA processing, Avignon, 
        France. October, 1995.

        Absence of a role for DNA polymerase II in SOS-induced 
        translesion bypass of phi X174. Journal of Bacteriology, 1993.

        DNA polymerase II is encoded by the DNA damage-inducible dinA 
        gene of Escherichia coli. Proceedings of the National Academy 
        of Sciences, 1990.

        Enhancement of Escherichia coli plasmid and chromosomal 
        recombination by the Ref function of bacteriophage P1. 
        Genetics, 1989.

    Other Speeches and Articles:

        From Lab Rat to Policy Wonk, Minority Science Programs seminar 
        program, University of California at Irvine, Irvine, CA. June, 
        2006.

        Science and Technology in the White House: the Office of 
        Science and Technology Policy, seminar for West Point cadets, 
        West Point, NY, May, 2006.

        From Lab Rat to Policy Wonk, talk at Society for Neuroscience 
        Annual Meeting, Washington, DC, November, 2005.

        Careers in Science Policy: Life after the AAAS Fellowship, talk 
        at AAAS Fellows orientation, Washington, DC, September, 2005.

        Nanotechnology: A Policy Perspective, speech at Surface 
        Finishing Industry Council meeting, Washington, DC, May, 2005.

        The National Nanotechnology Initiative, speech at 
        Nanotechnology for the Forest Products Industry workshop, 
        Landsdowne, VA, November, 2004.

        Recent Nanotechnology Legislation, talk at NNI Research 
        Directions II Workshop, Washington. DC, September, 2004.

        From Lab Rat to Bureaucrat: a Former Scientist's Perspective on 
        Working in the Policy Arena, speech at Computational Science 
        Graduate Fellows Conference, Washington, DC, July, 2004.

        The Intersection of Biology and Nanotechnology: A Policy 
        Perspective, Florida Association of Colleges and Universities 
        meeting, Sarasota, Florida, June, 2004.

        Federal Manufacturing R&D: Comments on Emerging Initiatives, 
        talk at the National Research Council Board on Manufacturing 
        meeting, Washington, DC, April, 2004.

        The National Nanotechnology Initiative: The Federal 
        Perspective, speech at the AVS meeting, Baltimore, MD, 
        November, 2003.

        Reinvigorating High-End Computing R&D, speech at the CRA 
        Workshop on High-End Computing, Washington, DC, June, 2003.

        The Federal Investment in Nanotechnology: Supporting the Next 
        Industrial Revolution, speech to Albany Nanotechnology 
        Symposium, Albany, NY, September, 2002.

        From the Lab to the Hill: A Scientist's Perspective on Working 
        for Congress, speech at Computational Science Graduate Fellows 
        Conference, Washington, DC. July, 2001.

        The Future of Graduate Education, speech at AAAS Annual 
        meeting, Anaheim, CA, January 1999.

        Towards a New National Science Policy, speech at AAAS Annual 
        meeting, Philadelphia, PA, February 1998.

        At the Edge of a New Frontier: A Profile of the Stanford 
        University Biomedical Ph.D. Class of 1996, published by BioMASS 
        (student group), 1996.

        Commencement speech, Stanford University School of Medicine, 
        Stanford, CA, June, 1996.

        Second Opinion (guest editorial column), Stanford Medicine 
        Magazine, 1996.

    This list may not be comprehensive.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    As per my ethics agreement, I plan to remain a member of DOGS-East, 
Inc. (though I have no agreement or commitment to do so).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which, could involve potential conflicts of interest in 
the position to which you have been nominated.
    My ethics agreement addresses a potential conflict of interest with 
my service on the American Association for the Advancement of Science 
Congressional Fellowships Advisory Board, and clarifies my involvement 
with DOGS-East, Inc.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    While I foresee no conflict of interest, I have stock holdings in 
Sun Microsystems, Connectics Corporation, and AIM Energy Fund. All 
three fall well below the Office of Government Ethics' de minimus 
threshold, and the AIM Energy Fund is also an ``excepted investment 
fund.'' My husband holds stock in Calypso Wireless, Inc. Again, this 
holding falls well below the de minimus threshold.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have worked to influence various legislative provisions as part 
of my duties as a staffer in the congressional offices in which I have 
worked as well as at the Office of Science and Technology Policy.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    My ethics agreement and SF-278 fully disclose potential conflicts 
of interest and articulate how I will deal with them, should they 
arise.
    Specifically, regarding my non-Federal affiliations, if confirmed I 
will resign my position on the Advisory Board for the Congressional 
Science Fellows Program of the American Association for the Advancement 
of Science.
    I will continue to serve as a member (search and rescue dog 
handler) of DOGS-East, Inc., and may again serve on its Board of 
Directors in the future, for which I will not receive any compensation. 
I will not participate personally and substantially in any particular 
matter that will have a direct and predictable effect on the financial 
interests of this organization, unless I first obtain a written waiver. 
I also will not participate in any fundraising activity for this 
organization.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    My divorce from my ex-husband was handled in civil court in New 
Jersey.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I believe my background as a research scientist, combined with my 
policy experience in both the Legislative and executive branches, make 
me well-qualified for the position of Associate Director for Science in 
the Office of Science and Technology Policy.
    I have a deep interest in issues at the intersection of science and 
policy. I firmly believe that science and technology play a critical 
role in our Nation's success, and that a strong scientific and 
technological enterprise fuels the discoveries and innovations that 
keep America secure and economically strong, and that improve the 
quality of life for all. I look forward to working with the Committee 
to maintain and strengthen U.S. world leadership in science and 
technology.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? If so, please explain.
    I have experienced one informal EEO complaint, which involved a 
personnel matter and which was resolved in the counseling process, with 
no formal complaint filed.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you.
    Senator Inouye, do you have a comment?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much.
    Senator Rockefeller wanted very much to be here at this 
hearing, but, as you know, he's Vice Chairman of the 
Intelligence Committee, and he had to excuse himself. However, 
he has asked me to submit his letter to the Committee with his, 
as I quote, ``unequivocal support'' of Senator Pryor's 
nomination. And, without objection, may I request this?
    The Chairman. I don't know, maybe I should object to that.
    [Laughter.]
    The Chairman. Without objection.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I very much regret that I cannot be with you today to welcome our 
former colleague and my dear friend Senator David Pryor to the 
Committee on the occasion of his nomination to the board of the 
Corporation for Public Broadcasting (CPB). I am required to be at an 
important Senate Intelligence Committee meeting, or I would certainly 
have arranged to be with you all today to share my unequivocal and 
resounding endorsement of Senator David Pryor's nomination. The Senate 
has sorely missed his reasoned voice and tenacious legislating since he 
retired. I have missed him personally, and professionally, but know 
that in his post-Senate career he has continued to find ways to serve 
the people of his state and this Nation that he so loves. This 
nomination is another opportunity for him to contribute and the 
Commerce Committee should report his nomination and the full Senate 
should speedily confirm him for this post.
     I am absolutely confident that any of my colleagues who had the 
distinct pleasure of serving with Senator David Pryor already join me 
in steadfast support of his nomination. He will serve the CPB board 
with his characteristic integrity and bring his deep commitment to the 
many issues involved in public broadcasting. I have no doubt that he 
will master the intricacies of these issues in short order. Senator 
Pryor always provides a quiet leadership and has demonstrated a unique 
ability to guide matters of public policy with a seasoned hand. The CPB 
board is wise to take advantage of Senator Pryor's impressive talent 
and is sure to see an immediate benefit from his membership.
    I write only to put my endorsement in the official hearing record. 
I believe that any Senator who did not have the privilege of knowing 
Senator Pryor during his tenure in this body still knows how very much 
he is revered and loved, but I wanted to say so for the formal record. 
The Corporation for Public Broadcasting needs Senator Pryor's 
leadership as it faces the challenges of this new century and to 
fulfill its very critical mission.

    Senator Inouye. I'd like to commend and congratulate and 
thank Senator Pryor for his many, many years of public 
service--Congressman, Senator, Ambassador, and now Director. 
You've done very well, and I think you've instilled a little to 
your son, sitting here.
    And, with that, I'd like to yield the rest of my time to 
him, because he told me he's got a whole lot of questions.
    [Laughter.]
    Senator Inouye. Thank you very much.
    Senator David Pryor. Do we get to cross-examine, here?
    [Laughter.]
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Mark Pryor. Mr. Chairman, I think every son looks 
forward to the moment when they can finally get their father 
under oath.
    [Laughter.]
    Senator Mark Pryor. And the irony of this does not escape 
my brother and I, because we remember our father, several times 
when during our teenage years, would tell us to turn the radio 
down.
    [Laughter.]
    Senator Mark Pryor. And--now, Mr. Chairman, of course, I 
think that David Pryor will do a fantastic job on the 
corporation board. And, as I mentioned yesterday, I'll recuse 
myself from the vote, but I'm very, very appreciative for you 
moving this nomination and having the hearing today. And I 
don't have any questions.
    Thank you.
    The Chairman. Thank you very much.
    I am going to excerpt from the memos we had prepared before 
the hearing, a paragraph for each nominee today, and put that 
ahead of the statements that you are making.
    I have personally reviewed all the nominees, and I have no 
questions of these nominees. I think you're all very 
excellently qualified for the position in which you've agreed 
to serve.
    Do you have any questions, Senator?
    Senator Inouye. I'd like to associate myself with your 
statement of support. I've reviewed their papers, and we are 
fortunate to have all of you.
    The Chairman. As two Senators who really have had a great 
interest in the Corporation for Public Broadcasting, I can 
assure you we'll maintain that interest. We look forward to 
working with the two of you who will go there. And we have had 
similar feelings about the Under Secretary of Economic Affairs 
and the directorship of the Office of Science and Technology 
Policy. The Nation is privileged that you are willing to serve 
in those positions. So, we'll be pleased to try and move these 
nominations as quickly as possible, and we thank you all for 
coming.
    And we'll turn to the next panel, if that's all right, 
unless any of you wanted to cross-examine us.
    [Laughter.]
    Senator David Pryor. Thank you very much.
    [Pause.]
    The Chairman. We'll now turn to the second panel. We have 
before us Colonel Calvin Scovel, of Virginia, to be Inspector 
General of the Department of Transportation; the Honorable 
Charles Snelling, of Pennsylvania, to be a Member of the Board 
of Directors of the Metropolitan Washington Airports Authority; 
and Mr. Collister ``Terry'' Johnson, to be Administrator of the 
Saint Lawrence Seaway Development Corporation.
    Gentlemen, we'll proceed in that order, if that's 
agreeable. And, Colonel, we're pleased to have your statement.

    Prepared Statement of the Chairman regarding the Background of 
                          Calvin L. Scovel III
    Calvin Scovel was nominated on July 13, 2006, to be Inspector 
General of the Department of Transportation. Having served almost 29 
years of active service in the U.S. Marine Corps, Colonel Scovel is 
currently serving as senior judge on the U.S. Navy-Marine Corps Court 
of Criminal Appeals. Prior to this appointment, he was Chief Defense 
Counsel of the Marine Corps, and has also served as Assistant Judge 
Advocate General of the Navy for Military Justice. Colonel Scovel 
received his bachelor's degree from the University of North Carolina at 
Chapel Hill, graduated from Duke University School of Law, and received 
his Master's degree from the U.S. Naval War College. He currently 
resides in Dumfries, Virginia.

  STATEMENT OF CALVIN L. SCOVEL III, NOMINEE TO BE INSPECTOR 
             GENERAL, DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Thank you, Mr. Chairman, Co-Chairman Inouye. 
It's an honor for me to appear before you today as President 
Bush's nominee to serve as Inspector General of the Department 
of Transportation.
    I would like to thank former Secretary Mineta for his 
expression of confidence, and the Committee, for considering my 
nomination expeditiously. If confirmed, I look forward to 
working closely with the new Secretary and this committee on 
issues related to the vital work performed by the Department.
    I also want to thank my wife, Cathy, and our sons, Carey 
and Thomas, for their love and unfailing support. They couldn't 
be here with me this afternoon. But I would also like to thank 
my parents, who passed away some years ago. They went to 
extraordinary lengths to provide my sisters and me with every 
opportunity as we were growing up, and often told us how proud 
they were of us. I'm grateful for their love and encouragement.
    During 29 years of active military service, I have worked 
extensively with, and for IGs. As a prosecutor, defense 
counsel, and judge, I handled criminal and administrative cases 
that arose from IG investigations. As a legal advisor for 
senior military commanders and the Secretary of the Navy, I 
evaluated IG reports and assisted in implementing their 
recommendations. For a short period of time, I served as the 
first counsel to the Inspector General of the Marine Corps.
    My experience impressed upon me the fundamental importance 
of the IG's role in detecting and preventing fraud, waste, and 
abuse, and reviewing Federal programs to enhance their 
efficiency, economy, and effectiveness. I'm keenly aware that 
the latter aspect of the IG's statutory role, evaluating how 
agency policy decisions are implemented, requires an IG to 
strike a delicate balance. He or she must tread carefully so as 
not to become a policymaker.
    When an IG participates inappropriately in the overall 
process of policy formulation and execution, the independence 
and objectivity that are critical to successful performance of 
the IG's statutory mission may be compromised.
    In discussions with DOT's leaders during the nomination 
process, I learned that they fully appreciate and support the 
role played by an independent IG. If confirmed, I will strive 
always to maintain open and frank communications with the 
Secretary and senior DOT staff, and to respect the necessary 
boundary between IG and policymakers.
    An IG also has a direct communication channel with the 
members and staff of the Congress, a link that is especially 
important to the essential work performed by the oversight 
committees. If confirmed, I will endeavor to be responsive to 
you on all matters in which the IG's fact-finding capabilities 
may assist you.
    I wish to comment on the IG staff at DOT. I believe that 
the IG's work product is valued and respected in the 
Department, and credit for that achievement is largely due to 
the exceptional caliber and commitment of the highly 
professional auditors, investigators, and analysts on the 
staff. If confirmed, I look forward to working closely with 
these men and women to continue to produce top-quality, 
unbiased audits, investigations, and evaluations.
    I've been in the service of our country since age 18, when 
I joined a Marine Corps Officer Commissioning Program as a 
college freshman. My military duties have taken me all over the 
world, including assignments as senior legal advisor to the 
commander of Marine amphibious forces in the first Persian Gulf 
war and on the staffs of the Secretary of the Navy and 
Commandant of the Marine Corps. I was in the Pentagon on 
September 11, 2001.
    Several young people who are important in my life are 
making similar commitments to public service. My son Carey is 
now working for the TSA while he awaits assignment in the Peace 
Corps. My son Thomas is a plebe at the Naval Academy. My 
nephew, Nate Rawlings, is a 2004 graduate of Princeton. He now 
serves as an Army combat engineer officer, and today he is 
hunting improvised explosive devices in Baghdad.
    As my military service draws to a close, as required by 
law, I am grateful for the opportunity to continue to serve our 
country in a civilian capacity, and I'm honored to be 
considered for this important position. The day will surely 
come when I must relinquish the privilege of serving our 
country, but with a nation at war and my own sons and nephew 
entering public service, I hope that day has not yet arrived.
    If confirmed as Inspector General, I pledge to work closely 
with the Congress and the Department's leaders in building a 
cooperative, productive, and respectful relationship.
    Thank you for considering my nomination, and I will be 
pleased to respond to your questions.
    [The prepared statement and biographical information of 
Colonel Scovel follow:]

       Prepared Statement of Calvin L. Scovel III, Nominee to be 
            Inspector General, Department of Transportation
    Thank you, Mr. Chairman, Co-Chairman Inouye, and members of the 
Committee. It is an honor for me to appear before you today as 
President Bush's nominee to serve as Inspector General of the 
Department of Transportation. If confirmed, I look forward to working 
closely with this Committee on issues related to the vital work 
performed by the Department.
    During almost 29 years of active military service, I have worked 
extensively with and for IGs. As a prosecutor, defense counsel, and 
judge, I handled criminal and administrative cases that arose from IG 
investigations. As a legal advisor for senior military commanders and 
the Secretary of the Navy, I evaluated IG reports and assisted in 
implementing their recommendations. For a short period of time, I 
served as the first counsel to the Inspector General of the Marine 
Corps. My experience impressed upon me the fundamental importance of 
the IG's role in detecting and preventing fraud, waste, and abuse, and 
reviewing Federal programs to enhance their efficiency, economy, and 
effectiveness.
    I am keenly aware that the latter aspect of the IG's statutory 
mission--evaluating how agency policy decisions are implemented--
requires an IG to strike a delicate balance. He or she must tread 
carefully so as not to become a policymaker. When an IG participates in 
the overall process of policy formulation and execution, the 
independence and objectivity that are critical to successful 
performance of the IG's statutory mission will be compromised. In 
discussions with DOT's leaders during the nomination process, I learned 
that they fully appreciate and support the role played by an 
independent IG. If confirmed, I will strive always to maintain open and 
frank communications with the Secretary and senior DOT staff and to 
respect the necessary boundary between IG and policymaker.
    An IG also has a direct communication channel with the Members and 
staff of the Congress, a link that is especially important to the 
essential work performed by the oversight Committees. If confirmed, I 
will endeavor to be responsive to you on all matters in which the IG's 
fact-finding capabilities may assist you.
    I wish to comment on the IG staff at DOT. I believe that the OIG's 
work product is valued and respected in the Department, and credit for 
that achievement is largely due to the exceptional caliber and 
commitment of the highly professional auditors, investigators, and 
analysts on the staff. If confirmed, I look forward to working closely 
with these men and women to continue to produce top quality, unbiased 
audits, investigations, and evaluations.
    As a career public servant, I am honored to be considered for this 
important position and, as my military service draws to a close, 
grateful for the opportunity to continue to serve our country. If 
confirmed as Inspector General, I pledge to work closely with the 
Congress and the Department's leaders in building a cooperative, 
productive, and respectful relationship. Thank you for considering my 
nomination, and I will be pleased to respond to your questions.
                                 ______
                                 
                      A. Biographical Information
    1. Name (Include any former names or nicknames used): Calvin Loren 
Scovel.
    2. Position to which nominated: Inspector General, Department of 
Transportation.
    3. Date of nomination: July 13, 2006.
    4. Address (List current place of residence and office addresses):

        Residence: information not released to the public.

        Office: U.S. Navy-Marine Corps Court of Criminal Appeals, 
        Building 111, Suite 1000, 716 Sicard Street, SE, Washington 
        Navy Yard, DC 20374-5047.

    5. Date and place of birth: June 24, 1952; Fairfield, Iowa.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Cathy G. Scovel, Adult Services Librarian I (on-call), 
        Prince William County (VA) Public Library, Chinn Park Regional 
        Library, Woodbridge, VA.

        Children: Carroll B. Scovel, age 22; Thomas G. Scovel, age 19.

    7. List all college and graduate degrees. Provide year and school 
attended.

        A.B., 1973, University of North Carolina at Chapel Hill.

        J.D., 1977, Duke University School of Law.

        M.A., 1993, U.S. Naval War College.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Senior Judge, U.S. Navy Marine Corps Court of Criminal Appeals, 
        Washington, DC.

        Chief Defense Counsel of the Marine Corps, Washington, DC.

        Assistant Judge Advocate General of the Navy (Military 
        Justice), Washington, DC.

        Provost Marshal and Commanding Officer, Security Battalion, 
        Marine Corps Base, Quantico, VA.

        Staff Judge Advocate, Marine Corps Combat Development Command, 
        Quantico, VA.

        Counsel to Deputy Naval Inspector General/Inspector General of 
        the Marine Corps, Headquarters, U.S. Marine Corps, Washington, 
        DC.

        Head, Research and Civil Law Branch, Judge Advocate Division, 
        Headquarters, U.S. Marine Corps, Washington, DC.

        Special Assistant for Military Law, Assistant Secretary of the 
        Navy, The Pentagon.

        Staff Judge Advocate, 4th Marine Expeditionary Brigade, 
        Norfolk, VA (deployed to Southwest Asia and Norway).

        Department chair and instructor, criminal procedure and 
        evidence, Naval Justice School Newport, RI.

        Prosecutor or defense counsel in approximately 250 courts-
        martial.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Adjunct faculty member, Defense Institute of International Legal 
Studies, 1999-2004. (Led instruction teams on rule of law and civilian 
control of the military for senior civilian and military officials in 
Honduras, Mauritius, Albania, and Serbia.)
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Boy Scouts of America, Troop 964, Woodbridge, VA. Former 
        Assistant Scoutmaster and current Troop Committee member.

        First United Presbyterian Church of Dale City, Woodbridge, VA. 
        Endowment Committee member.

        Phillips Exeter Academy, Class of 1970. Former class president 
        and current assistant class agent.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        New Hampshire Bar Association, 1977-Present, member.

        District of Columbia Bar, 1994-Present, member.

        Marine Corps Association, 1986-Present, member.

        Delta Upsilon Fraternity, 1971-Present, member and UNC chapter 
        president in 1973. (Membership restricted to males.)

        Appalachian Trail Conservancy, 1972-Present, life member.

        Military Officers Association of America, 2003-Present, life 
        member.

        Boy Scouts of America, 1960-Present, former Assistant 
        Scoutmaster and current Troop Committee member, Troop 964, 
        Woodbridge, VA. (Youth membership restricted to males.)

        First United Presbyterian Church of Dale City, Woodbridge, VA, 
        1995-present, Endowment Committee member.

        Phillips Exeter Academy, Class of 1970, 1970-Present, former 
        class president and current assistant class agent. (The student 
        body was all-male when I attended from 1966 to 1970. The school 
        became coeducational in 1970.)

    12. Have you ever been a candidate for public office? No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Phillips Exeter Academy, scholarship recipient.

        University of North Carolina at Chapel Hill, John Motley 
        Morehead Scholarship recipient.

        Duke University School of Law, scholarship recipient.

        Military awards: Legion of Merit (three awards); Meritorious 
        Service Medal (two awards); Navy and Marine Corps Commendation 
        Medal (three awards); Combat Action Ribbon (Persian Gulf War); 
        Military Outstanding Volunteer Service Medal; other unit, 
        campaign, and service awards.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, any speeches that you have given 
on topics relevant to the position for which you have been nominated. 
Do not attach copies of these publications unless otherwise instructed.
    I have served as a judge on the U.S. Navy-Marine Corps Court of 
Criminal Appeals since August 2004. My duties involve the appellate 
review of Navy and Marine Corps courts-martial. I have drafted opinions 
in over 80 cases. They were reviewed by the other judges of my three-
judge panel and were issued as the decision of the court in those 
cases.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I currently serve as class agent for the Class of 1970, Phillips 
Exeter Academy. If confirmed, I will resign this position. Please refer 
to the opinion letter of the Deputy General Counsel.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity in the past 5 years in which you have been 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the opinion letter of the Deputy General Counsel.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Member of class in suit involving initial public offering (IPO) of 
Ariba and Commerce One (business-to-business interne sales companies) 
stock. I do not currently own either stock. Settlement of the suit is 
pending and, based on the number of shares I once owned. I expect any 
payment to me to be small. In Re Initial Public Offering Securities 
Litigation, 21 MC 92 (SAS), 01 Civ. 2359, U.S. District Court, 
(S.D.N.Y.).
    Was a member of class in suit involving allegedly defective Mercury 
outboard motors. Case was settled in August 2004, which resulted in an 
extension of the warranty on my outboard motor. Lazo v. Mercury Marine, 
Case No. 03-12354 CA27, Circuit Court, 11th Judicial District, Miami-
Dade County, FL.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Thank you very much, Colonel.
    We'll turn next to Charles Snelling, to be the member of 
the Board of Directors of the Metropolitan Washington Airports 
Authority.

    Prepared Statement of the Chairman regarding the Background of 
                            Charles Snelling
    Charles Snelling was nominated on June 5, 2006, to be a Member of 
the BOD of MWAA. Mr. Snelling has been self-employed since 1955 and 
founded The Snelling Company, a high-tech business that was sold in the 
1970s. Mr. Snelling served as the Chairman of the Pennsylvania Aviation 
Advisory Commission from 2000 to 2003 and was first confirmed to serve 
on the BOD of MWAA in December 2003. He has also served on the Board of 
Governors of the Lehigh Valley International Airport. He attended 
Muhlenberg College and graduated with a Bachelors degree in Engineering 
Mechanics from Lehigh University. He currently resides in Fogelsville, 
Pennsylvania.

    Mr. Snelling?

       STATEMENT OF HON. CHARLES DARWIN SNELLING, NOMINEE

           TO BE A MEMBER OF THE BOARD OF DIRECTORS,

           METROPOLITAN WASHINGTON AIRPORTS AUTHORITY

    Mr. Snelling. Thank you, Mr. Chairman and Senator.
    May I take the liberty of introducing my daughter, Penny, 
who's a lawyer in Lebanon, Pennsylvania, and my granddaughter, 
Jordan, who's a sophomore at the University of Richmond.
    The Chairman. Yes.
    Mr. Snelling. And I have a whole gaggle of supporters from 
MWAA, including the president and the secretary of the board.
    Having said so, I'm Charles Snelling, the President's 
nominee to a second term as a member of the Metropolitan 
Washington Airports Authority board of directors. I am 
delighted to appear before you again at a confirmation hearing, 
an opportunity that not many have, let alone twice for the same 
position.
    I was last here on September 2003, when I was nominated to 
complete the unexpired term of the Honorable Norman Y. Mineta, 
who had resigned from the board of MWAA in July of 2000 when he 
was appointed as Secretary of Commerce. That term expired in 
May 2006.
    I have since served as a carryover status, as contemplated 
by our compact legislation. Thus, by now I have had a great 
deal of experience with the Authority.
    I am one of three directors appointed by the President. The 
three of us are proud to be amongst the most active members of 
the 13-member board. I have served, since January 2005, as 
chairman of the finance committee. My prior experience in this 
area on the board of Lehigh Valley Hospital, a billion-dollar 
charity, has proved most helpful.
    The Authority's finance committee has been moving the 
Authority to innovative funding approaches that have saved the 
Authority considerable financing costs. The Authority's 
financial strength was one of the key reasons that the 
Commonwealth of Virginia decided, last year, to transfer the 
Dulles Toll Road to us, along with the responsibility of 
constructing the Dulles Silver Line Metrorail extension. 
Authority staff is currently making final plans for the 
transfer, with the expectation that it can be effective in 
January 2007. The proposal includes a complex funding package 
for the rail lines, with support provided by special tax 
districts along the Dulles corridor, as well as toll revenues 
collected by the Authority, completely separate from aviation 
revenues and functions.
    The project is an exciting one, and, in my view, will prove 
beneficial to the entire Metropolitan Washington region. The 
rail line should open in 2012, the same year that my term as 
the director would expire.
    I believe it is critical to set up a new organization 
within the Authority to operate the toll road as soon as 
possible. At the same time, it is absolutely critical that we 
do not lose our focus on our principal function, providing 
world-class air service for the people of the Greater 
Washington community and for everyone who wishes to travel 
here.
    I can report to you that we are very much on top of 
continuing traffic growth at Dulles. As you may know, we got 
some breathing room last year, after a record 2005, when 
Independence Air drove annual passenger numbers up to 27 
million at Dulles. About a year after its bankruptcy, traffic 
at Dulles has just about returned to prior levels. 2006 already 
exceeds all prior years, other than 2005, and prospects for the 
future are for substantial growth.
    Thus, we are under way building a new fourth runway at 
Dulles, and are drilling tunnels for the automated underground 
people-mover that will open in 2009. On the agenda is the 
schedule for the next midfield terminal building.
    If I am confirmed, it will be my responsibility, with the 
finance committee, to lead the financing of these projects. The 
Authority now goes to the financial market several times a year 
to take the best advantage of shifting rates. We have more than 
3 billion in revenue bonds outstanding, and are prepared for an 
additional 400 million this fall. We enjoy an excellent 
reputation with the rating agencies, and enjoy some of the 
highest ratings in the airport industry.
    Mr. Chairman, it's almost exactly 20 years since the 
Congress agreed to turn Dulles and National over to the 
Metropolitan Washington Airports--to the independent 
Metropolitan Washington Airports Authority. In my opinion, this 
has proved to be most wise and a beneficial decision.
    I look forward to continuing the Authority's excellent 
record as we face the challenges of a constantly changing 
industry.
    Mr. Chairman, thank you for considering my renomination to 
the board of the Metropolitan Washington Airports Authority. I 
will be very happy to answer any questions that anyone might 
have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Snelling follow:]

  Prepared Statement of Hon. Charles Darwin Snelling, Nominee to be a 
  Member of the Board of Directors, Metropolitan Washington Airports 
                               Authority
    Mr. Chairman, Members of the Committee:
    I am Charles Snelling, the President's nominee to a second term as 
a Member of the Metropolitan Washington Airports Authority Board of 
Directors. I am delighted to appear before you again at a confirmation 
hearing, an opportunity not many have, let alone twice for the same 
position.
    I was last here in September of 2003, when I was nominated to 
complete the unexpired term of the Honorable Norman Y. Mineta, who had 
resigned from the Board in July 2000 when he was appointed Secretary of 
Commerce. That term expired in May 2006; I have since served in a 
``carryover'' status, as contemplated by our compact legislation. Thus, 
by now I have had a great deal of experience with the Authority.
    I am one of the three Directors appointed by the President; the 
three of us are proud to be among the most active members of the 13-
member Board. I have served since January 2005 as Chairman of the 
Finance Committee. My prior experience in this area, on the Board of 
the Lehigh Valley Hospital, a billion dollar charity, has proved most 
helpful. The Authority Finance Committee has been moving the Authority 
to innovative funding approaches that have saved the Authority 
considerable financing costs.
    The Authority's financial strength was one of the key reasons the 
Commonwealth of Virginia decided last year to transfer the Dulles Toll 
Road to us, along with the responsibility of constructing the Dulles 
``Silver Line'' Metrorail extension. Authority staff is currently 
making final plans for the transfer, with the expectation that it can 
be effective in January 2007. The proposal includes a complex funding 
package for the rail line, with support provided by special tax 
districts along the Dulles corridor, as well as toll revenues collected 
by the Authority, completely separate from aviation revenues.
    The project is an exciting one, and in my view will prove 
beneficial to the entire Metropolitan Washington region. The rail line 
should open in 2012, the same year my term as a Director would expire.
    I believe it is critical to set up a new organization within the 
Authority to operate the toll road as soon as possible. At the same 
time, It is absolutely critical that we do not lose our focus on our 
principal function, providing world class air service both for the 
people of the greater Washington community and for everyone who wishes 
to travel here.
    I can report to you that we are very much on top of continuing 
traffic growth at Dulles. As you may know, we got some breathing room 
this year after a record 2005, when Independence Air drove annual 
passenger numbers up to 27 million. About a year after its bankruptcy, 
traffic at Dulles has just about returned to prior levels--2006 already 
exceeds all prior years other than 2005--and prospects for the future 
are for substantial growth.
    Thus we are underway building a new fourth runway at Dulles, and 
are drilling tunnels for the automated underground people mover that 
will open in 2009. On the agenda is the schedule for the next midfield 
terminal building.
    If I am confirmed, it will be my responsibility, with the Finance 
Committee, to lead the financing of these projects. The Authority now 
goes to the financial markets several times a year to take the best 
advantage of the shifting rates. We have more than $3 billion in 
revenue bond debt outstanding, and are preparing for an additional $400 
million this fall We enjoy an excellent reputation with the rating 
agencies, and enjoy the some of the highest ratings in the airport 
industry.
    Mr. Chairman, it is almost exactly twenty years since the Congress 
agreed to turn over Dulles and National, the Metropolitan Washington 
Airports, to the independent Metropolitan Washington Airports 
Authority. In my opinion, this has proved a most wise and beneficial 
decision. I look forward to continuing the Authority's excellent record 
as we face the challenges of a constantly changing industry.
    Mr. Chairman, thank you for considering my renomination to the 
Board of the Metropolitan Washington Airports Authority. I will be 
happy to answer any questions.
                                 ______
                                 
                      a. biographical information
    1. Name: (Include any former names or nicknames used): Charles 
Darwin Snelling.
    2. Position to which nominated: Member, [``Director''], 
Metropolitan Washington Airports Authority, an agency created by 
interstate compact between the Commonwealth of Virginia and the 
District of Columbia.
    3. Date of nomination: June 5, 2006.
    4. Address (List current place of residence and office addresses.) 
Information not released to the public.
    5. Date and place of birth: January 26, 1931; Allentown, 
Pennsylvania.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Married March 21, 1951 to Adrienne Celeste Angeletti; she is 
        not employed.

        Adrienne Celeste Snelling II Sullivan--54
        Jonathan Commonfort Snelling--52
        Marjorie Preston Snelling--50
        Elizabeth Hornor Snelling Groner--48
        Lesley Coates Snelling Bober--45

    7. List all college and graduate degrees. Provide year and school 
attended.

        Muhlenberg College, Allentown, Pennsylvania, September 1949-
        June 1951.

        Lehigh University, Bethlehem, Pennsylvania, September 1951-June 
        1954, B.S. in E.M.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated: Since 1955 I 
have been effectively self-employed.
    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Chairman, 
Pennsylvania Aviation Advisory Commission, 2000-2003.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business enterprise, 
educational, or other institution within the last 5 years.
    Current:

        Director, Bliley Technologies
        President and Director, The Snelling Company
        President and Director, Western Lehigh Valley Corporation
        Chairman, 1000 Islands Marine and Island Service

    Prior:

        Director, NEPA Management Business Trust, 1985-2005

        Director, Axicom Technologies, Inc., 1997-2005

        Trustee, Lehigh Valley Hospital/Lehigh Valley Health Network, 
        Inc., Allentown, Pennsylvania--1982-2002; Treasurer--1986-1991

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.
    Current:

        Council of The Pennsylvania Society, Sellersville, 
        Pennsylvania--Secretary 1993-1995; First Vice President 1995-
        1997; President 1997-2000.

        The Franklin Institute, Philadelphia, Pennsylvania.

        American Association for the Advancement of Science, 
        Washington, D.C.

        Merion Cricket Club, Haverford, Pennsylvania.

        Grenadier Island Country Club, Ltd., Ontario, Canada--Past 
        President.

        Lehigh Country Club, Allentown, Pennsylvania.

        The Princeton Club, New York, New York.

        The Athenaeum of Philadelphia, Philadelphia, Pennsylvania--
        Director.

        Foundation for the Advancement of Monetary Education, New York, 
        New York--Trustee.

        Cedar Crest College, Allentown, Pennsylvania--Trustee 1974-
        1997; Treasurer 1985-1997; Life Trustee since 1997.

        The Antique Boat Museum, Clayton, New York--Trustee since 1978; 
        Chairman 1998-2000.

    Prior:

        Allentown Art Museum, Allentown, Pennsylvania--Trustee.

        Allentown Economic Development Corporation, Allentown, 
        Pennsylvania--Director.

        Allentown-Lehigh County Chamber of Commerce, Allentown, 
        Pennsylvania--Director.

        Allentown-Lehigh County Chamber of Commerce Issues Committee--
        Member.

        Muhlenberg College, Allentown, Pennsylvania--Member, Board of 
        Associates.

        Pennsylvania State University--Member, Advisory Board for 
        Allentown Campus.

    None of the above restricts membership on the basis of sex, race, 
color, religion, national origin, age or handicap.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt.

        Councilman, city of Allentown, Pennsylvania--elected 1969 (4-
        year term).

        President, Allentown City Council--elected annually, 1970-1973.

        Member, 1972 Pennsylvania Electoral College.

        Candidate for the Pennsylvania Senate, 1974.

        There is not any outstanding debt for any of these campaigns.

    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

    2006

        $1,000--Friends of Senator Jubelirer
        $1,000--Friends of Doug Reichley
        $1,000--Citizens for Browne
        $1,000--Lehigh County Republican Committee
        $2,000--Lynn Swann for Governor
        $1,000--Friends of Rob Wonderling
        $2,100--Charlie Dent for Congress
        $1,000--Green Party of Luzerne County

    2005

        $1,668--Committee to Reelect Jane Ervin
        $4,200--Santorum 2006
        $700--Committee to Elect Bob Nyce
        $600--Heydt for Mayor
        $1,000--Friends of Doug Reichley
        $2,100--Charlie Dent for Congress
        $1,000--Friends of Rob Wonderling
        $500--Jim Gerlach for Congress
        $750--Republican Majority for Choice
        $1,000--Friends of Karen Beyer
        $500--Pa. Senate Republican Campaign Committee
        $1,000--Pennsylvania Republican State Committee
        $500--Lehigh County Republican Committee

    2004

        $1,000--Friends of Doug Reichley
        $1,250--Lehigh County Republican Committee
        $576--Citizens for Arlen Specter
        $1,100--Friends of Tom Corbett
        $1,000--Friends of Joe Peters
        $1,000--Committee to Elect Julie Harhart
        $1,500--Pennsylvania Republican State Committee
        $500--Pennsylvania Picks Jean Craige Pepper
        $1,000--Committee to Elect Peg Ferraro
        $2,000--Charlie Dent for Congress
        $500--Jim Gerlach for Congress
        $500--Volunteers for Argall
        $500--Pa. Senate Republican Campaign Committee

    2003

        $4,000--Bush-Cheney 2004, Inc.
        $1,000--Brian Johnson for Judge
        $1,000--Charlie Dent for Congress
        $1,000--Lehigh County Republican Committee
        $500--Northampton County Republican Committee
        $500--Committee to Elect Jim Martin
        $1,000--Pennsylvania Republican State Committee
        $500--Lehigh Valley Coalition for Fair Government

    2002

        $2,424--Citizens for Arlen Specter
        $1,000--Friends of Brian O'Neill
        $1,000--Pat Toomey for Congress
        $1,000--Committee to Elect Doug Reichley
        $1,000--Committee to Elect Charlie Dent
        $1,000--Lehigh Valley Republican Development Group
        $1,000--Pennsylvania Republican State Committee
        $500--Pa. Senate Republican Campaign Committee

    2001

        $2,500--Committee to Elect Judge R. Simpson
        $2,000--Committee to Elect Jane Ervin
        $2,000--Pam Varkony for Mayor
        $1,000--Pat Toomey for Congress
        $1,000--Citizens for Arlen Specter
        $1,000--Pa. Senate Republican Campaign Committee
        $1,000--Bob Lovett for Mayor
        $1,000--Committee to Elect Charlie Dent
        $1,000--Fisher for Governor
        $1,000--Pennsylvania Republican State Committee
        $500--Republican Pro-Choice Coalition
        $500--Friends of Renee Cohn
        $500--Friends of Judge Eakin

    2000

        $5,000--RNC Presidential Trust
        $2,000--Gruppo for State Representative
        $1,500--Citizens for Browne
        $1,500--Citizens for Mark Mitman
        $1,500--Pa. Senate Republican Campaign Committee
        $1,000--Governor Ridge Leadership Circle
        $1,000--Friends of Mike Fisher
        $1,000--WISH (Women in Senate and House)
        $1,000--Committee to Elect Robert Saurman
        $1,000--Friends of Barbara Hafer
        $1,000--Pennsylvania Republican State Committee
        $1,000--Voices for Varkony
        $500--Committee to Elect Julie Harhart

    1999

        $2,000--Governor George W. Bush Presidential Exploration 
        Committee
        $2,000--Jim Martin for District Attorney
        $2,000--Pat Toomey for Congress
        $1,000--Pennsylvania Republican State Committee
        $1,000--Friends of Giuliani
        $1,000--Pam Varkony for City Council
        $500--Sam Katz for Mayor
        $500--Blaschak for City Council
        $500--Pa. House Republican Campaign Committee
        $500--Nick Sabatine for County Council

    1998

        $2,050--Pat Toomey for Congress
        $2,000--Friends of Governor Ridge
        $1,000--Citizens for Joe Uliana
        $1,000--Pa. House Republican Campaign Committee
        $1,000--Citizens for Arlen Specter
        $1,000--Pennsylvania Republican State Committee
        $1,000--Friends of Rima Fahl
        $650--Committee to Elect Charlie Dent
        $500--Friends of Senator Jubelirer
        $500--Committee to Elect Bonnie DiCarlo

    1997

        $1,000--Wallitsch for Superior Court
        $1,000--Jim Martin for Judge
        $1,000--Friends of Governor Ridge
        $1,000--Rick Santorum 2000
        $1,000--Pa. House Republican Campaign Committee
        $1,000--Pennsylvania Republican State Committee
        $600--Bill Heydt for Mayor
        $600--Friends of Bill Brackbill

    1996

        $1,125--Lehigh County Republican Committee
        $1,000--Pennsylvania Republican State Committee
        $1,000--Dole/Kemp `96
        $1,000--Pa. House Republican Campaign Committee
        $1,000--Friends of Bob Kilbanks
        $500--Friends of Governor Ridge
        $500--Committee to Elect Bob Nyce

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        1958--Chosen as one of America's Outstanding Young Men in 
        Business in a national magazine survey.

        1962--Chosen Distinguished Young Man of the Year, Allentown 
        Junior Chamber of Commerce.

        1999--Honorary Doctor of Public Service Degree, Cedar Crest 
        College, Allentown.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed
    I have written regular columns commenting on economic, political 
and social issues, published in the Allentown Morning Call since 1979. 
From 1983 to 1986, I also wrote a weekly column for the Bethlehem 
Globe-Times.
    I have not made any formal speeches for which a text is available, 
other than in my 2003 confirmation hearing before this Committee. Other 
speeches I have delivered have been extemporaneous, and neither the 
text nor the notes for such remarks exist.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    Except for my 2003 confirmation hearing before this Committee, I 
have never testified orally or in writing before Congress.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: There are none.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I do not intend to alter my current business activities, as they do 
not present any conflicts. The position is part-time (two days per 
month), and the Metropolitan Washington Airports Authority, which is 
not a Federal agency, does not compensate me for more than routine 
expenses.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    All my investments, obligations, liabilities and other 
relationships have been reviewed at the Office of Government Ethics and 
at the Airports Authority. We all agree that none presents a risk of 
conflict of interest. A copy of my Office of Government Ethics Form 450 
has been provided to the Committee.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: I cannot identify any.
    5. Describe any activity during the past 5 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have never been paid as an advocate of public policy or 
legislation, nor have I ever been a lobbyist. However, I have in my 
regular newspaper column on politics and economics made public 
pronouncements on all manner of policy issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I would address any potential conflict of interest in accordance 
with the Airports Authority ``Code of Ethical Responsibilities for 
Members of the Board of Directors'', which generally provides for full 
disclosure and recusal for apparent conflicts.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, state, or other law enforcement authority for violation of 
any Federal, state, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain.
    I have never been arrested, charged or held by any Federal, state 
or other law enforcement agency for violation of any Federal, state, 
county or municipal law, regulation or ordinance other than for minor 
traffic offenses. I have no knowledge that I have ever been 
investigated.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Several businesses of which I have been an officer have been 
subject to routine civil litigation, such as tort and contract matters. 
None has involved me personally, although I was once named, as 
Treasurer of the Lehigh Valley Hospital, in a financial dispute with 
the doctors.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I have very substantial experience as a board member, board 
chairman and manager. At the Airports Authority, I have fully 
participated in the board deliberations and decisions, and have had a 
near perfect attendance record at board and committee meetings. The 
Chairman has appointed me Chairman of the Finance Committee, a key 
committee of the Board. I am a member of the Strategic Development, 
Information Technology and Compensation Committees, and routinely 
attend meetings of all eight Committees.
    6. Have you even been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    To the extent it is within my power as one of thirteen Directors.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    I understand this has not been an issue at the Airports Authority, 
but I would want to make sure that such witnesses and whistle blowers 
did not suffer reprisals.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Certainly.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
    I have always been willing to appear and testify on such occasions, 
and will remain so.

    The Chairman. Thank you, sir.
    Next, Mr. Collister Johnson, of Virginia, to be the 
Administrator of the Saint Lawrence Seaway Development 
Corporation.
    Collister Johnson was nominated on September 5, 2006, to be 
Administrator of the SLSDC. Mr. Johnson currently serves as 
Senior Management Consultant at Mercer Management Consulting. 
He has also served on the Board of Directors of the Overseas 
Private Investment Corporation since 2002. Prior to his current 
position, Mr. Johnson was President and Chief Executive Officer 
of FastShip Atlantic, Inc., as well as Senior Vice President 
and Director of Presidential Airways, Inc. Mr. Johnson received 
his bachelor's degree from Yale University and his law degree 
from the University of Virginia. He currently resides in 
McLean, Virginia.

      STATEMENT OF COLLISTER ``TERRY'' JOHNSON, NOMINEE TO

            BE ADMINISTRATOR, SAINT LAWRENCE SEAWAY 
                    DEVELOPMENT CORPORATION

    Mr. Johnson. Thank you, Mr. Chairman. Appreciate being 
here.
    I'd like to introduce my wife, Liz--Liz, if you could--
could you stand up? Thank you very much.
    The Chairman. Thank you.
    Mr. Johnson. And also recognize our children, who couldn't 
be here today. They're in graduate school. Son, Coddy, 
daughter, Kelley, and daughter-in-law Carrie. They possibly 
could be listening in, so I want to make sure that I recognize 
them, as well, and thank them for their love and support.
    Mr. Chairman, with your permission, I'm going to submit my 
statement, for the record, and just make some extemporaneous 
remarks, if I can.
    I want to thank the Committee very much for having this 
hearing. I especially want to thank President Bush for 
appointing me. And I wanted to make a couple of comments about 
the Saint Lawrence Seaway Corporation and recognize some--and 
put on the record some things that many people don't know.
    But the Seaway Authority is a vital part of the Great Lakes 
economy. It is--since 1959, it has carried 3 billion tons of 
cargo and 300 billion--worth $300 billion. And it serves 25--
more than 25 ports in Canada and the U.S. So, it really needs 
to do its job well in order to facilitate the commercial 
activity of that part of the region. I think it also has the 
potential to be a channel that can reduce congestion in other 
parts of the country.
    In terms of my background and experience, qualifications 
for this job, I served as--8 years as the Chairman of Virginia 
Port Authority, which has a function very similar to the Seaway 
Corporation. I served as president of a shipping company. And I 
also served for many years as transportation consultant.
    So, I would respectfully submit that I have the 
qualifications and background to lend value to the Seaway 
Corporation, and, if confirmed, I will do my level best to make 
sure that it carries out its functions in a professional and 
efficient manner.
    Finally, there are many stakeholders in the Seaway 
Corporation, not only the commercial interests, but the 
noncommercial interests, the recreational interests. And if I 
am confirmed by this committee, I want to say that I will 
always have an open door and listen to all of the stakeholders.
    So, in closing, Mr. Chairman, thank you, again, for having 
me here, and I'd be pleased to answer any questions.
    [The prepared statement and biographical information of Mr. 
Johnson follow:]

 Prepared Statement of Collister ``Terry'' Johnson, Jr., Nominee to be 
      Administrator, Saint Lawrence Seaway Development Corporation
    Mr. Chairman and Members of the Committee:
    I am grateful for the opportunity to appear before you today as you 
consider my nomination for the position of Administrator of the Saint 
Lawrence Seaway Development Corporation. I am honored to be nominated 
for this position by President Bush, and if confirmed by the Senate, 
look forward to contributing to the best of my ability in helping the 
Seaway Corporation and the U.S. Department of Transportation carry out 
their respective missions and goals.
    One of the primary responsibilities for the Department is to 
oversee the country's transportation infrastructure in a way which will 
assure that our economy and commerce continue to grow and flourish. For 
the Seaway Corporation, that responsibility focuses directly on the two 
U.S. Seaway locks in Massena, New York. For nearly 50 years, the U.S. 
and Canadian Seaway agencies have served to provide a safe, secure, 
efficient, and reliable waterborne transportation route for the 
movement of goods to and from the heartland of North America. The 
management and operations of the U.S. and Canadian waterway system has 
been a model of binational cooperation. Since 1959, more than two 
billion tons of cargo estimated at $300 billion have moved to and from 
the United States, Canada, and nearly 50 other nations. If confirmed, I 
look forward to working with stakeholders, both current customers and 
prospective users, to further increase commercial trade through the 
waterway.
    The fact of the matter is that the Nation's transportation assets 
are often overlooked and seldom thought about until they fail or do not 
perform adequately. Consider the chaos, congestion, and lost 
productivity that would occur, as they have in the past, if the mass 
transit system in one of our major cities were forced to close down for 
several weeks, or if the same thing happened to one of our major hub 
airports. Transportation assets are a lynchpin of our economy, and 
effective stewardship of these assets is essential to the commercial 
well-being of our Nation.
    During my professional career, I have been fortunate to have served 
in positions where I have been called upon to administer, finance, and 
revitalize transportation assets in a variety of modes. I believe my 
professional experiences have given me the knowledge and ability to 
successfully perform the duties of Administrator for the Seaway 
Corporation.
    For example, for 8 years I served as the Chairman of the Virginia 
Port Authority which owns and administers most of the maritime 
facilities of the Port of Hampton Roads. At the beginning of my tenure 
on the Board, the Port of Hampton Roads was only the sixth largest port 
on the East Coast in terms of general cargo tonnage, which has the 
highest value and is the greatest generator of jobs and related 
employment. I am proud to say that at the time I stepped down as 
Chairman, the Port of Hampton Roads increased its cargo throughput to 
become the second largest port on the East Coast, having increased its 
general cargo tonnage by over 250 percent, creating many thousands of 
new jobs in the process.
    Also, in the mid-1990s, I served as President of FastShip, Inc., a 
company with a patented technology for rapid trans-oceanic container 
service. In that capacity, we extensively researched the trans-oceanic 
shipping markets, and came to understand the strengths and weaknesses 
of traditional air and ocean shipping carriers. We also forged public-
private partnerships with the ports of Philadelphia and Cherbourg, 
France, which helped us understand the importance of cooperation 
between the public and private sectors in the sphere of transportation.
    Finally, in my career as a management consultant with Mercer 
Management Consulting, I have devised innovative solutions for 
transportation problems in a variety of contexts. For example, the 
governments of both Mexico and Argentina retained Mercer to privatize 
the public transit system of Buenos Aires and the freight railroad of 
Mexico, both of which were in a serious state of deterioration. We 
successfully completed the mission of revitalizing these assets and 
returning them to productive use.
    In closing, Mr. Chairman, I want to thank you again for the 
opportunity to appear before this Committee. I believe that my 
background and experience are well suited to serve as Administrator of 
the SLSDC and if confirmed as Administrator of the Seaway Corporation, 
I pledge to work closely with you and welcome your ideas and 
suggestions. I would be pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Collister 
Johnson, Jr.
    2. Position to which nominated: Administrator, St. Lawrence Seaway 
Development Corporation.
    3. Date of Nomination: Aug. 29, 2006.
    4. Address (List current place of residence and office addresses): 
Information not released to the public.
    5. Date and Place of Birth: May 16, 1946; New York, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Elizabeth K. Johnson--not employed; children: Kelley M. 
        Johnson--32; Collister W. Johnson--30.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Yale University, B.A., 1968.
        University of Virginia, J.D., 1972

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Chairman, Virginia Port Authority, 1986-1993.
        President, FastShip Atlantic, Inc., 1993-1997.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: Director, Overseas 
Private Investment Corporation.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last 5 years.

        Senior Consultant, Mercer Management Consulting, Inc.

        President, Federal Systems Division, AmCad LLC.

        Board of Directors, JNet Direct, Inc. 2001-Present.

        Board of Directors, Lorton Arts Foundation--2003-Present.

    11. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Chevy Chase Club--1980.

        Sakonnet Golf Club--1985.

        Sakonnet Yacht Club--1985.

        Warren's Point Beach Club--1985.

        Harbor Point Club--2000.

        Anglers' Club of New York--1998.
        Lorton Arts Foundation--2004, Treasurer.

        Virginia Bar Association--1973.

        I have never been associated with any organization that 
        practiced discrimination.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of 5500 or more for the past 10 years.

        Republican National Committee--$500

        1McCrery for Congress--$500

        Bush for President--$1,000

        Bush-Cheney 2004--$2,000

        Keep our Majority PAC--$1,250

        Bush-Cheney Compliance Committee--$1,000

        Bush Compliance Committee--$5,000

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements: Hampton Rhodes Man of the 
Year--1993.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: None.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.
    Senate Committee on Foreign Relations, Oct. 16, 2002--Hearing on 
nomination to Board of Directors of Overseas Private Investment 
Corporation
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    Please refer to the Opinion Letter of the Assistant General Counsel 
for Environmental, Civil Rights, and General Law.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting--the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Please refer to the Opinion Letter of the Assistant General Counsel 
for Environmental, Civil Rights and General Law.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Well, thank you all very much.
    Colonel, you have been preceded by Ken Mead, who appeared 
before this committee many times. We had great respect for him, 
and he was of great assistance to the Committee. We look 
forward to working with you.
    And, Mr. Snelling, having served on that board in days gone 
by as one of the Congressional representatives--I don't know if 
you still have them or not, but I was an original member of 
that Metropolitan Washington Airports Authority--we thank you 
very much for being willing to take on that task. You've been 
there already, so you know what you're doing. So, we appreciate 
your willingness to continue to serve.
    And, Mr. Johnson, I'm constrained to say that my roommate 
from law school came to Washington to help set up the Saint 
Lawrence Seaway Development Corporation, so I've known it for a 
long time. It has had a long distinguished history, and we 
thank you for being willing to serve.
    As with the other nominees, I did review your 
qualifications and I have no questions. We'll put the paragraph 
that we have prepared for each of you, in terms of your 
qualifications, before the statements you've just made.
    Senator?
    Senator Inouye. I'd like to congratulate all of you on your 
nominations and commend you and thank you for your public 
service. It's not easy to dedicate your life to that cause.
    Thank you very much.
    The Chairman. And unless there's an objection, and I don't 
expect one, we will prepare all seven of these nominations and 
do our best to clear them for reporting to the floor after the 
first vote that occurs following this hearing, unless there is 
a question that's raised by any absent member, in which case 
that question would have to be responded to by the nominee 
before we could go through that procedure, because it does take 
unanimous consent. But we hope we'll be able to clear these for 
reporting to the floor sometime next Tuesday, at the latest, 
and they will be, hopefully, considered by the Senate before we 
recess for the election period.
    Thank you all very much for coming, and we thank your 
family members for joining us.
    Unless there's something you have further, Senator----
    Senator Inouye. We have no objection on our side.
    The Chairman. That's good. That's a good relationship to 
have, to be Co-Chairman. We have just decided we will follow 
that procedure.
    Thank you very much.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
